<html>
<title> - HEARING TO REVIEW THE IMPLEMENTATION OF THE RESEARCH TITLE OF THE 2008 FARM BILL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 HEARING TO REVIEW THE IMPLEMENTATION OF THE RESEARCH TITLE OF THE 2008
                               FARM BILL

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CONSERVATION, CREDIT,
                          ENERGY, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 30, 2009

                               __________

                           Serial No. 111-30


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
53-365                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            FRANK D. LUCAS, Oklahoma, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        BOB GOODLATTE, Virginia
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 TIMOTHY V. JOHNSON, Illinois
DENNIS A. CARDOZA, California        SAM GRAVES, Missouri
DAVID SCOTT, Georgia                 MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                STEVE KING, Iowa
STEPHANIE HERSETH SANDLIN, South     RANDY NEUGEBAUER, Texas
Dakota                               K. MICHAEL CONAWAY, Texas
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
JIM COSTA, California                JEAN SCHMIDT, Ohio
BRAD ELLSWORTH, Indiana              ADRIAN SMITH, Nebraska
TIMOTHY J. WALZ, Minnesota           ROBERT E. LATTA, Ohio
STEVE KAGEN, Wisconsin               DAVID P. ROE, Tennessee
KURT SCHRADER, Oregon                BLAINE LUETKEMEYER, Missouri
DEBORAH L. HALVORSON, Illinois       GLENN THOMPSON, Pennsylvania
KATHLEEN A. DAHLKEMPER,              BILL CASSIDY, Louisiana
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
BETSY MARKEY, Colorado
FRANK KRATOVIL, Jr., Maryland
MARK H. SCHAUER, Michigan
LARRY KISSELL, North Carolina
JOHN A. BOCCIERI, Ohio
SCOTT MURPHY, New York
EARL POMEROY, North Dakota
TRAVIS W. CHILDERS, Mississippi
WALT MINNICK, Idaho

                                 ______

                           Professional Staff

Robert L. Larew, Chief of Staff      Nicole Scott, Minority Staff 
Andrew W. Baker, Chief Counsel       Director
April Slayton, Communications 
Director

                                  (ii)
?

       Subcommittee on Conservation, Credit, Energy, and Research

                   TIM HOLDEN, Pennsylvania, Chairman

STEPHANIE HERSETH SANDLIN, South     BOB GOODLATTE, Virginia, Ranking 
Dakota                               Minority Member
DEBORAH L. HALVORSON, Illinois       JERRY MORAN, Kansas
KATHLEEN A. DAHLKEMPER,              SAM GRAVES, Missouri
Pennsylvania                         MIKE ROGERS, Alabama
BETSY MARKEY, Colorado               STEVE KING, Iowa
MARK H. SCHAUER, Michigan            RANDY NEUGEBAUER, Texas
LARRY KISSELL, North Carolina        JEAN SCHMIDT, Ohio
JOHN A. BOCCIERI, Ohio               ADRIAN SMITH, Nebraska
MIKE McINTYRE, North Carolina        ROBERT E. LATTA, Ohio
JIM COSTA, California                BLAINE LUETKEMEYER, Missouri
BRAD ELLSWORTH, Indiana              GLENN THOMPSON, Pennsylvania
TIMOTHY J. WALZ, Minnesota           BILL CASSIDY, Louisiana
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
FRANK KRATOVIL, Jr., Maryland
SCOTT MURPHY, New York
WALT MINNICK, Idaho
EARL POMEROY, North Dakota

               Nona Darrell, Subcommittee Staff Director

                                 (iii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Goodlatte, Hon. Bob, a Representative in Congress from Virginia, 
  opening statement..............................................     3
Holden, Hon. Tim, a Representative in Congress from Pennsylvania, 
  opening statement..............................................     1
    Prepared statement...........................................     2
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, prepared statement..................................     3

                               Witnesses

Shah, M.D., Hon. Rajiv, Under Secretary of Research, Education, 
  and Economics, U.S. Department of Agriculture, Washington, D.C.     4
    Prepared statement...........................................     6
Coston, Ph.D., D.C., Vice President for Agriculture and 
  University Extension, North Dakota State University, Fargo, ND; 
  on behalf of Board on Agriculture Assembly, Association of 
  Public and Land-grant Universities.............................    24
    Prepared statement...........................................    26
    Submitted material...........................................    29
Layton, Jr., Joseph H., Member, Board of Directors, American 
  Soybean Association; President, National Coalition for Food and 
  Agricultural Research; Soybean, Corn, and Grape Farmer, Vienna, 
  MD; on behalf of USDA National Agricultural Research, 
  Extension, Education and Economics (NAREEE) Advisory Board.....    47
    Prepared statement...........................................    49


 HEARING TO REVIEW THE IMPLEMENTATION OF THE RESEARCH TITLE OF THE 2008

                              FARM BILL

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2009

                  House of Representatives,
 Subcommittee on Conservation, Credit, Energy, and 
                                          Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 1300, Longworth House Office Building, Hon. Tim Holden 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Holden, Dahlkemper, 
Markey, Boccieri, McIntyre, Kratovil, Pomeroy, Goodlatte, 
Moran, Schmidt, Smith, and Thompson.
    Staff present: Nona Darrell, Christy Birdsong, Adam Durand, 
Tyler Jameson, John Konya, Scott Kuschmider, Anne Simmons, 
Rebekah Solem, Patricia Barr, John Goldberg, Jamie Mitchell, 
and Sangina Wright.

   OPENING STATEMENT OF HON. TIM HOLDEN, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    The Chairman. The hearing will come to order. This hearing 
of the Subcommittee on Conservation, Credit, Energy, and 
Research to review the implementation of the research title of 
the 2008 Farm Bill will come to order.
    I would like to welcome everyone to today's hearing. I 
would hope this hearing will provide a good review of the 
implementation of agriculture research programs since we passed 
the farm bill in 2008. The hearings we held during 
consideration of the 2008 Farm Bill showcased the importance of 
an increasing demand for agriculture research.
    Specialty crop growers called for additional and enhanced 
research programs to maximize their production and efficiency. 
Other farmers wanted more funding for research on conservation 
practices. Even more producers asked us for increased research 
and development on renewable energy.
    Clearly the fundamental need for research spans across 
several different commodities in various agricultural sectors. 
Several agencies within USDA, state partners and private 
organizations, conduct the bulk of agriculture research. 
Calculations under rate of return on Federal investment in 
agriculture research is estimated to be 6.8 percent per year. 
These programs are not only high in demand with users, but they 
are fiscally responsible as well.
    We made changes in the 2008 Farm Bill such as streamlining 
agriculture research by establishing a National Institute of 
Food and Agriculture. These changes should maximize efficiency 
and coordination throughout USDA's research agencies. We also 
addressed the growing list of needs in agriculture research, 
extension and education for food and agriculture sciences, by 
creating a premier research program called the Agriculture and 
Food Research Initiative.
    As we implement this new farm bill, we must ensure that the 
integrity of these programs remains intact and that the 
organizations involved can continue their successful work.
    In these times of budgetary constraints, we hope that the 
changes we made in the 2008 Farm Bill are very helpful in 
enhancing cooperation, and streamlining the research to save 
taxpayer dollars. We must be innovative in meeting all of the 
different research needs and adapting to the increasing demand 
for newer areas of research. Research is an important 
investment in our future. I look forward to hearing from our 
witnesses today on how we are implementing agriculture research 
programs.
    [The prepared statement of Mr. Holden follows:]

  Prepared Statement of Hon. Tim Holden, a Representative in Congress 
                           from Pennsylvania

    I would like to welcome everyone to today's hearing. I hope this 
hearing will provide a good review of the implementation of 
agricultural research programs since we passed the farm bill in 2008.
    The hearings we held during consideration of the 2008 Farm Bill 
showcased the importance of, and increasing demand for, agricultural 
research. Specialty crop growers called for additional and enhanced 
research programs to maximize their production and efficiency. Other 
farmers wanted more funding for research on conservation practices. 
Even more producers asked us for increased research and development on 
renewable energy. Clearly, the fundamental need for research spans 
across several different commodities and various agricultural sectors.
    Several agencies within USDA, state partners, and private 
organizations conduct the bulk of agricultural research. Calculations 
on the rate of return on Federal investment in agricultural research 
estimate it to be 6.8 percent per year. So these programs are not only 
in high demand with users, but they are fiscally responsible as well.
    We made changes in the 2008 Farm Bill, such as streamlining 
agricultural research by establishing a National Institute of Food and 
Agriculture (NIFA). These changes should maximize efficiency and 
coordination throughout USDA's research agencies. We also addressed the 
growing list of needs in agricultural research, extension, and 
education for food and agricultural sciences by creating a premier 
research program called the Agriculture and Food Research Initiative 
(AFRI).
    As we implement this new farm bill, we must ensure that the 
integrity of these programs remains intact and the organizations 
involved can continue their successful work. In these times of 
budgetary constraints, we hope that changes we made in the 2008 Farm 
Bill are very helpful in enhancing cooperation and streamlining 
research to save taxpayer dollars. We must be innovative in meeting all 
of the different research needs and adapting to the increasing demand 
for newer areas of research.
    Research is an important investment in our future. I look forward 
to hearing from the witnesses on how we are implementing agricultural 
research programs.

    The Chairman. I now recognize the Ranking Member of the 
Subcommittee, the gentleman from Virginia, Mr. Goodlatte.

 OPENING STATEMENT OF HON. BOB GOODLATTE, A REPRESENTATIVE IN 
                     CONGRESS FROM VIRGINIA

    Mr. Goodlatte. Thank you, Mr. Chairman. I appreciate that 
this Subcommittee will be addressing issues related to the 
USDA's implementation of the research title of the recently 
passed farm bill. Many factors have contributed to the 
unparalleled success of American agriculture, the favorable 
soils and climate, hard work and dedication of farm families, 
free enterprise, transportation and communication.
    But one factor of undeniable importance was the Green 
Revolution, the expansion of food production, enabled in large 
part by science-based advances in food and agriculture. It has 
been estimated that around the globe, the Green Revolution has 
saved over a billion lives from starvation and countless 
millions more from the ravages of disease and sickness due to 
malnutrition.
    As we mourn the recent passing of the father of the Green 
Revolution, Dr. Norman Borlaug, we can take pride in the past, 
present and future advances made possible through research 
programs which Dr. Borlaug so tirelessly advocated.
    The contribution of publicly supported agricultural 
research to advance food production and productivity is well 
documented. These improvements in agricultural productivity 
generated by research, while of great importance to the farmer, 
are broadly shared with society in terms of a efficient 
production system that is competitive in the global 
environment.
    These improvements also contribute to a safe and secure 
food and fiber supply, a healthy, well-nourished population and 
a growing economy. In developing the research title of the 
recent farm bill, this Committee spent considerable time 
working with the USDA, the research community and the 
beneficiaries of publicly funded research, education and 
extension programs to enhance the quality, transparency and 
accountability of these programs.
    With the implementation deadline of tomorrow, October 1, 
for several significant provisions of the research title, it is 
particularly timely for this Subcommittee to hear from the 
USDA, the USDA Research Advisory Board, our land-grant 
universities, and other constituent groups to update us on 
these important developments.
    Mr. Chairman, I thank you for holding this hearing, and I 
look forward to today's testimony and the considerable 
discussion that will follow in this Committee.
    The Chairman. The chair thanks the gentleman.
    I would ask all other Members of the Subcommittee to submit 
their opening statements for the record.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress from Minnesota

    Thank you, Chairman Holden and Ranking Member Goodlatte, for your 
leadership and for calling today's hearing so that we can examine 
implementation of important farm bill programs.
    I will be very brief so that our witnesses can provide us with 
their testimony. I look forward to today's examination of the progress 
made following the changes made in the 2008 Farm Bill to agricultural 
research programs.
    The research, education and extension that USDA oversees and funds 
helps increase agricultural productivity, prevents and addresses plant 
and animal disease, improves human nutrition and health, and discovers 
and utilizes new technologies.
    I thought we did a lot of good things in the farm bill to 
streamline and modernize the agricultural research functions at USDA. 
The farm bill re-engineered the functions of the Department, with the 
intent of making agricultural research more efficient, modern, and more 
accountable to the taxpayer.
    As Chairman Holden said, we worked to meet the demand for research 
in areas such as specialty crops and renewable energy, and education 
and extension geared towards beginning farmers and ranchers. This 
modernization was done to meet the new food, feed, fiber and fuel 
challenges of the next generation, while improving the return on 
taxpayer investment.
    We are approaching the reorganization of some of our existing 
research programs under the National Institute of Food and Agriculture, 
so now is a good time to take stock of where we are and where we need 
to go.
    Once again, I thank Chairman Holden and Ranking Member Goodlatte 
for calling for this hearing and for their leadership on examining farm 
bill implementation. I yield back my time.

    The Chairman. I would now like to welcome our first 
witness, Dr. Rajiv Shah, Under Secretary of Research, 
Education, and Economics at the United States Department of 
Agriculture.
    Dr. Shah, you may begin when you are ready.

    STATEMENT OF HON. RAJIV SHAH, M.D., UNDER SECRETARY OF 
            RESEARCH, EDUCATION, AND ECONOMICS, U.S.
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Dr. Shah. Thank you, Chairman Holden, Ranking Member 
Goodlatte and distinguished Members of the Subcommittee.
    I appreciate this opportunity to discuss the programs 
delivered by my mission area at the U.S. Department of 
Agriculture. As Under Secretary of Research, Education, and 
Economics and Chief Scientist, I oversee four outstanding 
agencies: The Agricultural Research Service; the Cooperative 
State Research, Education and Extension Service, which, as you 
referenced, will tomorrow, on October 1, become the National 
Institute of Food and Agriculture; the Economic Research 
Service and the National Agricultural Statistics Service.
    I have submitted my prepared remarks to the Clerk and asked 
that they be entered into the record.
    The Chairman. Without objection, so ordered.
    Dr. Shah. Mr. Chairman, I am convinced that right now is 
our opportunity, with your leadership in Congress and with the 
help and support of the American people, to bring about real 
transformative change in the way we do science at USDA. 
Congress gave me two powerful tools for cultivating this 
transformational change in the 2008 Farm Bill, the 
establishment of the National Institute of Food and Agriculture 
and the creation of a Chief Scientist at the USDA. These are 
big, bold steps, and I thank you for your foresight and 
leadership to put these initiatives into place.
    I will be using the role of Chief Scientist to focus our 
resources where scientific breakthroughs can fundamentally 
change the way we address difficult social problems, from the 
security of our food supply to food safety, climate change, 
bioenergy, human nutrition. As Chief Scientist, I also want us 
to rethink the scale of scientific endeavor at the USDA and to 
harness the very best science and give us the ability to 
leverage our investments with partners from the Federal science 
enterprise, industry, and academia.
    I appreciate the reference to Dr. Borlaug who, of course, 
was the stunning example of success in many of these 
principles. I hope, as we go forward with this change effort, 
that we are really living up to the example he set in pursuing 
outstanding research, taking risks, working at scale and making 
sure the work is relevant to changing the lives of many.
    In addition, I hope to use the Office of Chief Scientist to 
further Secretary Vilsack's and President Obama's commitment to 
make sure that our research has impact, that we generate real 
visible results for American families and producers in a very 
short timeframe and in a broad and significant manner. I have 
begun at USDA a systematic review of both our intramural and 
extramural research assets, with the goal of making sure that 
we target the right problems at the right scale, deliver 
measurable results, and improve the efficiency of our research 
enterprise. NIFA is a critical part of that effort.
    While we will start the process in the next few days of 
launching the national institute, it will take many months to 
achieve the significant change in our operational model, our 
business model and our research priorities to make sure that we 
are living up to the full vision and intent as implemented in 
the farm bill.
    I am delighted to share with you that Dr. Roger Beachy, a 
world-renowned plant scientist and eminent leader in this 
field, has agreed to become the first director of the new 
National Institute of Food and Agriculture. I have worked 
closely with Roger on a number of important issues over the 
years, and I am excited about his joining our team. He is a 
true leader in making sure that science plays a key role in 
addressing the issues that will form the core of our agenda, 
going forward.
    He recognizes the unique value of our land-grant 
universities, our extension system and outreach program, such 
as the 4-H effort.
    Many of you already know Roger and are familiar with his 
distinguished record as a scientist and manager. What I am 
excited about is his eagerness to work in a collaborative way 
with you in Congress, and with our staff at the USDA, to make 
sure that we implement the research title of the farm bill in 
close consultation and according to the spirit of the law.
    The new NIFA structure will incorporate several best 
practices in research support from the National Institutes of 
Health, the Department of Energy, the National Science 
Foundation and other Federal science agencies. NIFA will be 
built around a small number of small scientific directorates 
that overlap with our top research priorities, and it will 
provide a flexible structure that will encourage partnerships 
with other agencies within USDA and the rest of the Federal 
science enterprise.
    By partnering differently with academia and industry, we 
also hope NIFA will directly increase the return on investment 
of our grant making and will achieve better results in a faster 
and more visible manner. We have a rich and varied intramural 
base that likewise can be leveraged to ensure the ability to 
meet the Department's and the government's mission 
responsibilities.
    Scientists in our Agricultural Research Service, for 
example, conduct truly world-class research. Recently they have 
identified a successful device to control ticks that cause Lyme 
disease that could potentially reduce the prevalence in the 
Northeast of that disease quite significantly by more than \2/
3\. Our ARS geneticists have also unlocked new portions of the 
corn genome, a breakthrough that could accelerate the 
development of important new traits like heat tolerance, water-
use efficiency and nitrogen-use efficiency that could assure 
that we maintain our leadership role in production agriculture 
worldwide.
    I thank you for giving me the opportunity to work with such 
stellar scientists in this exciting area of change at USDA. 
Most of the specific implementation activities of the research 
title of the farm bill deal with programs administered by 
CSREES: the Specialty Crop Initiative, the Organic Agriculture 
Research and Extension Initiative, the Agriculture, Food, and 
Research Initiative and the Biomass Research and Development 
Initiative.
    In addition, the expansion of the Food and Nutrition 
Education Program to the 1890 Institutions, Smith-Lever 3(d) 
Programs, Hispanic Serving Agricultural Colleges, the Beginning 
Farmer and Rancher Development Program, and the Veterinary 
Medicine Loan Program are welcome additions.
    I know that much of your thought and planning has gone into 
establishing or modifying these efforts. I want you to know 
that we continue to work diligently on implementation of each 
of these. They are important to me and the Department's 
leadership, so I have addressed each of these issues more 
extensively in my prepared remarks and look forward to 
answering any specific questions.
    Mr. Chairman, Ranking Member, and Members of the 
Subcommittee, during my confirmation hearing, I pledged to 
approach my work at USDA with a spirit of learning, energy for 
service and commitment to outcome. I have been grateful for the 
leadership you have shown in giving me the expanded 
opportunities and tools to honor that pledge, and I thank you 
for your leadership in that area.
    I also appreciate the opportunity to testify before this 
Subcommittee and learn your further thoughts so that we can 
work in consultation as we go forward.
    I would like to conclude by thanking my staff and 
leadership, key Administrators of these agencies, Colien 
Hefferan, Ed Knipling, Cynthia Clark, and Kitty Smith, who have 
all joined us here today. It has been a real pleasure to work 
with them and work with their staffs, and to learn and meet so 
many of the wonderful scientists that work at USDA to carry out 
this mission.
    That concludes my statement. Thank you.
    [The prepared statement of Dr. Shah follows:]

    Prepared Statement of Hon. Rajiv Shah, M.D., Under Secretary of 
  Research, Education, and Economics, U.S. Department of Agriculture, 
                            Washington, D.C.

    Chairman Holden, Ranking Member Goodlatte and distinguished Members 
of the Subcommittee, I appreciate the opportunity to discuss the 
programs delivered by my mission area in the U.S. Department of 
Agriculture (USDA). As Under Secretary of Research, Education, and 
Economics, I oversee four agencies: the Agricultural Research Service 
(ARS), the Cooperative State Research, Education, and Extension Service 
(CSREES), which on October 1, 2009 will become that National Institute 
for Food and Agriculture (NIFA), the Economic Research Service (ERS) 
and the National Agricultural Statistics Service (NASS).
    Mr. Chairman, I am convinced that right now is our opportunity--
yours in Congress, ours in the Administration, and with the help and 
support of the American people--to bring about transformative change in 
the way we do science at USDA. Secretary Vilsack has made improving 
quality of life for families in rural communities a centerpiece of 
USDA's overall mission. The Secretary has repeatedly acknowledged how 
this Congress and the Administration have helped to provide the 
building blocks for a new rural economy. These building blocks include 
renewable energy, local and regional food systems, and nutrition--all 
of which research can help us advance. We can build on tremendous 
recent scientific discoveries--incredible advances in sequencing plant 
and animal genomes, and the beginnings of being able to understand what 
those sequences actually mean. We have new and powerful tools in 
biotechnology and nanotechnology. And we have bold new ideas about how 
to target and leverage our resources in ways that will harness the 
power of agricultural science for our health, wellbeing, and our 
environment.

Office of Chief Scientist
    Congress gave me two powerful tools for cultivating 
transformational change at USDA in the 2008 Farm Bill--the 
establishment of a National Institute of Food and Agriculture (NIFA) 
and the creation of a Chief Scientist at USDA. These are big, bold 
steps, and I thank you for the foresight and leadership to put these 
two initiatives in place. I will be using the role of Chief Scientist 
to focus our resources where scientific breakthroughs can fundamentally 
change the way we address some of the most vexing of society's 
problems, from food safety and food security to climate change. As 
Chief Scientist, I also want us to re-think the scale of scientific 
endeavor at USDA to enable us to harness the best science, and to give 
us the ability to leverage our investments with partners from the 
Federal science enterprise, industry, and academia. In addition, I will 
use the office of Chief Scientist to further Secretary Vilsack's and 
President Obama's commitment to make sure that our research has 
impact--that it can be tied to real results for real people and their 
families. This will require that we think differently about how our 
research outputs are put to broad use more rapidly.

National Institute of Food and Agriculture
    I have begun at USDA a top-to-bottom, systematic review of both our 
intramural and extramural research assets, with the goal of ensuring 
that we target the right problems at the right scale to give us the 
results we want. NIFA is a critical part of that review, and we will 
use NIFA to make our research portfolio more robust through enhancing 
competition for the research projects we fund. While we officially open 
the books on NIFA tomorrow, October 1, the next 6 months will be a time 
of great organizational evolution. This new structure--which will be 
built around problem-specific scientific disciplines--will allow us to 
better identify the research likely to yield scientific breakthroughs. 
It also will increase the return on investment of our grant-making 
process, and to better achieve results for our constituents and the 
American people. But we also have a rich and varied intramural research 
base that likewise can leveraged to ensure the ability to meet the 
Department's--and the Federal Government's--mission responsibilities. I 
thank you for giving me the opportunity to initiate this exciting era 
of change at USDA.
    The majority of the specific activities I would like to discuss 
with you today deal with CSREES as most implementation activity deals 
specifically with the programs administered by this agency. I am 
pleased to report to the Committee that we are preparing to make the 
transition from CSREES to NIFA as seamlessly as possible, and will make 
sure that our funding recipients do not experience any interruption in 
service as we move to cement the new research structure provided by 
NIFA. As the Committee knows, there were changes to many of the 
programs administered by CSREES and soon to be administered by NIFA. I 
have been amazed and pleased by the dedication and expertise of the 
USDA employees who have been crafting these changes that were necessary 
in implementing the 2008 Farm Bill. Their attention to detail and 
willingness to work long hours will pay dividends. I also want the 
Committee to be aware that we did not make these changes without 
extensive stakeholder input. Without exception we made sure to consult 
with stakeholders in each of the programs about which I will briefly 
update you.

Specialty Crop Research
    The Specialty Crop Research Initiative (SCRI) was established in 
the 2008 Farm Bill to solve critical industry issues through research 
and extension activities. CSREES had a very short time frame in which 
to implement this program following the passage of the farm bill and 
before the end of Fiscal Year 2008. They were successful and have now 
completed the second round of competitively awarded grants program that 
give priority to projects that are multi-state, multi-institutional, or 
trans-disciplinary; and include explicit mechanisms to communicate 
results to producers and the public. This newly created program in 
phase two received more than $300 million in applications for the $50 
million in mandatory funding made available. All of these projects were 
matched dollar for dollar.

Organic Agriculture Research and Extension Initiative
    In 2009, $18 million in mandatory funding was made available for 
this program through the 2008 Farm Bill. The first round of grants will 
be announced soon. Grants of up to $3 million will be awarded to fund 
projects that will enhance the ability of producers and processors who 
already have adopted organic standards to grow and market high quality 
organic agricultural products. Priority concerns include biological, 
physical, and social sciences, including economics. This program is 
particularly interested in projects that emphasize research and 
outreach that assist farmers and ranchers with whole-farm planning and 
ecosystem integration.

Agriculture and Food Research Initiative
    The Agriculture and Food Research Initiative (AFRI) replaces the 
program formerly known as the National Research Initiative. Section 
7406 of the Food, Conservation, and Energy Act established a new 
competitive grant program to provide funding for fundamental and 
applied research, extension, and education to address food and 
agricultural sciences. AFRI Grants shall be awarded to address 
priorities in United States agriculture in the following areas:

    (A) Plant health and production and plant products;

    (B) Animal health and production and animal products;

    (C) Food safety, nutrition, and health;

    (D) Renewable energy, natural resources, and environment;

    (E) Agriculture systems and technology; and

    (F) Agriculture economics and rural communities.

    I am pleased to report that after extensive stakeholder input, the 
annual priority areas for the Agriculture and Food Research Initiative 
were announced in March 2009. Previously, CSREES published a Program 
Announcement on December 17, 2008, providing an initial announcement 
about the administration of AFRI for FY 2009.

Biomass Research and Development Initiative
    CSREES along with the Department of Energy (DOE) Office of Biomass 
Programs competitively award Biomass Research and Development 
Initiative (BRDI) grants to eligible entities to research, develop, and 
demonstrate biomass projects (as defined in parts 1(A) & 1(B) of 
section 9008 of the Farm Security and Rural Investment Act of 2002 (7 
U.S.C. 8101 et seq.) as amended). The three main Technical Areas are: 
(1) Feedstocks Development, (2) Biofuels and Biobased Products 
Development, and (3) Biofuels Development Analysis. This is a joint 
solicitation with DOE managing the pre-application process and CSREES 
managing the full application process for this $20 million program. 
Announcement of grant awards is expected in October.

Expanded Food and Nutrition Education Program
    The CSREES' Expanded Food and Nutrition Education Program (EFNEP) 
is a unique program that currently operates in all 50 states and in 
American Samoa, Guam, Micronesia, Northern Marianas, Puerto Rico, and 
the Virgin Islands. It is designed to assist limited-resource audiences 
in acquiring the knowledge, skills, attitudes, and changed behavior 
necessary for nutritionally sound diets, and to contribute to their 
personal development and the improvement of the total family diet and 
nutritional well-being. The farm bill called for inclusion of 1890 
Institutions into this program. This change has been incorporated as 
have changes in the formula for allocating excess funds to 1890 
Institutions. Each 1862 and 1890 Institution will receive a minimum of 
$100,000 as prescribed by the legislation.

Smith-Lever 3(d) Programs
    Smith-Lever 3(d) funds are allocated to the states to address 
special programs or concerns of regional and national importance. The 
farm bill amends these programs to expand the eligibility to the 1890 
Land-Grant Institutions and required that funds be awarded on a 
competitive basis with the exception of the Expanded Food and Nutrition 
Education Program, which is distributed on a formula basis. The 
University of the District of Columbia also was made eligible for these 
programs. Included in these programs are Pest Management, Farm Safety, 
Children, Youth and Families at Risk, New Technologies for Agriculture 
Extension, Federally-recognized Tribes Extension Program and the 
Sustainable Agriculture (SARE) program. Again, the agency sought and 
received stakeholder input from all of the programs areas that were 
affected. We feel that each of the areas was provided ample opportunity 
for input and, for the most part the transition was quite successful.

Hispanic Serving Agricultural Colleges and Universities
    The farm bill called for several new programs and inclusion in 
current programs for Hispanic Serving Institutions. CSREES conducted 
stakeholder sessions to determine how best to proceed on determining 
qualifications for a Hispanic Serving Institution to qualify for the 
various programs. We expect very soon to formally announce those 
qualification factors, with publication of an interim rule.

Beginning Farmer and Rancher Development Program
    Farmers over the age of 55 own more than half the farmland in the 
United States. But the number of new farmers and ranchers over the age 
of 35 is increasing, as is the number of smaller farms and ranches 
nationwide. To address the needs of this changing generation, Section 
7410 of the Food, Conservation, and Energy Act of 2008 made $18 million 
available in Fiscal Year 2009 to fund a Beginning Farmer and Rancher 
Development Program (BFRDP). According to the legislation, a beginning 
farmer is considered to be a person who has 10 years or less of 
experience operating a farm or ranch. In 2007, approximately 21 percent 
of family farms met that definition. CSREES soon will announce the 
first round of these grants. Grants of up to $300,000 will be available 
in this first year of the program.

Veterinary Medicine Loan Repayment Program
    On September 8, the public comment period ended for the interim 
final rule for the Veterinary Medicine Loan Repayment Program. This 
program, much anticipated by all Agriculture animal stakeholders large 
and small, focuses on relieving the shortage of food-supply 
veterinarian shortages in rural agriculture production areas of the 
United States, and directly impacts the capacity and readiness of our 
National food safety infrastructure. It also relates directly to 
international food security because food animal veterinarians are the 
first line of defense against incursion of high consequence trans-
boundary animal diseases that could close borders to trade (e.g., BSE, 
avian influenza, and foot-and-mouth disease). The program will be 
rolling out over several months in its first incarnation and first 
awards are anticipated to be made next summer. It is possible that the 
program will have an accumulated $8 million available to incentivize, 
through educational loan repayment, veterinarians to fill positions 
where the food-supply veterinarian shortages are most severe.

Conclusion
    I appreciate the opportunity to testify before this Subcommittee 
today, and I look forward to working with you, Mr. Chairman, Ranking 
Member, and all the Members of this Subcommittee as we continue our 
hard work to ensure that USDA is responsive to the needs for 
Agriculture Research, Education, and Extension. This concludes my 
statement. I will be glad to answer questions you may have.

    The Chairman. Thank you, Dr. Shah.
    Doctor, in your previous position at the Gates Foundation, 
you were responsible for awarding research and education funds. 
What was your view of the USDA and the USDA research 
infrastructure? I am sure you worked with them at that time?
    Dr. Shah. Well, thank you for that question. We really had 
two observations. One is USDA has had just a tremendous history 
in creating breakthrough after breakthrough in U.S. production 
agriculture in making major, major contributions to work around 
the world. A lot of the Green Revolution efforts that were 
cited in the Ranking Member's statements came from our ARS 
scientists working at international research institutes and 
developing great breakthroughs and technologies.
    That said, I think from that perspective at Gates, I felt 
that sometimes our work was a little bit--our work, we did a 
lot of different things, and we were looking for partners, when 
I was at the Foundation, that could focus work at real scale 
and work in a very impact-oriented way.
    I think the capacity to do that certainly exists within our 
programs. Many of the changes we are trying to make, especially 
with NIFA, will allow us to live up to those principles, 
focusing on a smaller set of core problems, bringing scientists 
together from around the world, so that we can work at far 
greater scale in our efforts and initiatives.
    Some of the traits that we want to develop, for example, 
heat tolerance or drought tolerance, that kind of work requires 
broader and larger collaborations, longer periods of 
investment, and a longer time-frame before you see real 
results. We need to restructure ourselves, to take on those 
challenges most effectively.
    So I would say with the work at Gates, we saw some areas of 
excellence and we already partnered with USDA. Wheat rust is 
already a good example of that. But we also saw some areas 
where things could be done a little differently, and I hope 
some of that helps inform how we go forward, especially with 
NIFA.
    The Chairman. Thank you, Doctor. One of the issues we have 
struggled with over the years is how to best engage the 
research community in agriculture issues. Have you noticed more 
involvement from organizations representing traditional 
agriculture groups during the implementation process?
    Dr. Shah. I believe I have. I would say across the board 
there are two observations. One is, especially, with 
traditional stakeholders and constituent groups. Each of the 
agencies in the mission area have undergone extensive 
consultations. That is true in each of the specific programs 
that were highlighted in the farm bill and across the broader 
set of programs. So I think there is a deep engagement.
    Even as we have set out a structure and an operational 
model for the new National Institute of Food and Agriculture, 
we have had the opportunity to meet with many stakeholders and 
seek extensive remarks and consultations with them. I have 
appreciated the fact that most of them have taken that as an 
opportunity to send a follow-up e-mail or a letter with very 
specific thoughts about the structure of this organization 
going forward, and in many cases we incorporated their great 
advice and guidance.
    I personally believe that in order to have a truly 
outstanding scientific enterprise, we also need to broaden the 
tent and include consumer groups, food groups, and the private 
sector in a broader and more engaged set of collaborations, and 
so we have started to do that across the arena. One example is 
bioenergy where we have recently entertained and talked with a 
number of private sector partners that are developing dedicated 
feedstocks. We are exploring ways we could work together with 
them, and the Department of Energy, in a more robust 
partnership. I think as we expand on traditional partnerships 
and include a broader number of stakeholders in our work, we 
can expand the visibility and impact of our efforts, but it 
builds on a strong base of deep consultation.
    The Chairman. Thank you, Doctor. I have one final question 
that you might not be able to answer. But I believe you have 
publicly committed to doubling research or research funding in 
5 years and primarily through AFRI. Do you think the 
Administration will request an amount in AFRI in 2011 that 
reflects that commitment?
    Dr. Shah. I believe I am unable to comment on the details 
of 2011 and the budget request, because that is not completed 
yet, of course. But I do believe this Secretary and this 
President are uniquely committed to science and uniquely 
committed to this vision of using the National Institute of 
Food and Agriculture as the lever of change. I think that is 
consistent with the spirit and the leadership exhibited in the 
farm bill.
    So I thank the Committee for its great leadership in 
setting out that tone. I thank the broad number of stakeholders 
and universities that came together over 5, 6, 7 years to 
create a real movement in that direction. I appreciate the fact 
that Secretary Vilsack and the President's science adviser, Dr. 
Holdren, and many, many others across the Administration, in 
many other Federal science agencies, have stood up for science 
at USDA.
    The Chairman. Thank you, Dr. Shah. I now recognize the 
Ranking Member, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. Dr. Shah, welcome, 
we are delighted to have you here today.
    In the last farm bill, some groups advocated a complete 
reorganization of all research programs and agencies of the 
Department into the National Institute of Food and Agriculture, 
or NIFA, but others felt that such a move was inappropriate at 
that time. What's the view of the Administration regarding 
combining all research programs and agencies under the NIFA 
umbrella?
    Dr. Shah. I think the spirit exhibited in the farm bill and 
the leadership there, where there was a very clear message sent 
that research has to be integrated, we have to do research in a 
problem-oriented way against very specific strategies, and 
that, frankly, the patience for dealing with disparate and 
disconnected research agencies was wearing thin. I think that 
we take that very seriously.
    In that spirit, we are launching NIFA. We hope that NIFA 
will provide a great deal of intellectual leadership that will 
create a framework for USDA science that is very, very broad 
and inclusive. It should also be inclusive of other key 
partners.
    Among many of the areas we work, health and human nutrition 
is a good example, partners like the National Institutes of 
Health have far more sources than we actually do. So engaging 
them in partnerships and getting their dollars to go to our 
research priorities becomes an important part of our vision and 
success.
    A second thing I would say is we are deeply committed to 
reforming our intramural research assets in a way that I think 
is consistent with that earlier conversation about agricultural 
research. So even as we launch NIFA, which is primarily 
oriented around our extramural research funding programs, we 
are launching an internal study to review our intramural 
research assets and make sure that we are investing in 
excellence, making sure we continue to attract and retain the 
very best scientists, give them the tools to work with each 
other in a collaborative way, ask them to live up to----
    Mr. Goodlatte. Let me interrupt you. I have a lot of 
questions.
    Dr. Shah. Sure, sorry.
    Mr. Goodlatte. I want to follow up, though, on your comment 
about coordination because I think it is very important. Will 
the newly-appointed Director of the NIFA report to you as the 
Under Secretary as designated in the previous Administration, 
or will the line of reporting go directly to the Secretary?
    Dr. Shah. It will report to me directly as the Under 
Secretary and Chief Scientist.
    Mr. Goodlatte. Good. To what extent do you believe the 
formation of the Research, Education and Extension Office or 
REEO, will assist in coordinating the Department-wide research 
programs?
    Dr. Shah. It already has. The REEO office has been a big 
part of developing the roadmap, which will be public very, very 
shortly as was specified in the farm bill.
    We are in the process of transitioning the personnel in 
that group, but that group will continue to offer a great deal 
of leadership in offering that kind of coordinated view across 
USDA science. So it will continue in a strong manner.
    Mr. Goodlatte. In that regard, it is rumored that you will 
soon be replacing the REEO division chiefs with personnel from 
outside the Department. How do you plan on staffing those 
offices?
    Dr. Shah. I think most of the personnel that will take on 
those roles will actually be internal staff. There may be one 
or two cases where the best person for that role comes from the 
outside. We wanted to be agnostic about that criterion and 
really identified the very best people to provide the 
scientific leadership across the issues, as they were defined 
in the farm bill.
    Mr. Goodlatte. One of the things that concerns us here on 
this Committee very frequently is the stovepipe make-up of the 
U.S. Department of Agriculture, and the mentality that 
sometimes comes with that. What steps will you take to break 
down the stovepipes between the USDA science agencies 
internally, as well as with external partners. You mentioned 
that briefly in your earlier answer that I interrupted you on. 
But maybe you want to elaborate now.
    Dr. Shah. No, I thank you. I get very excited and so I go 
on, so please feel free to interrupt.
    There are a few ways to answer that. The first is Secretary 
Vilsack has been deeply committed to breaking the stovepipes 
across all of our programs, and has pulled together the senior 
leadership in a very clear and focused way around a specific 
set of priorities. That process has been very helpful in 
achieving that goal.
    The second is through the Chief Scientist, we have the 
ability now to set scientific standards and have leadership and 
strategic influence across all of science at USDA. We are 
already working very closely with the Forest Service R&D group, 
with the Food Safety Inspection Service leadership team there. 
Those types of partnerships will only expand over time, and the 
farm bill will set us up very strongly to do that.
    The third is, NIFA will offer a great deal of leverage in 
doing that. Each of the scientific directors of NIFA will have 
a tremendous amount of opportunity to build partnerships across 
USDA and across the Federal science agencies. In fact, we are 
already doing that with the Department of Energy, the National 
Institutes of Health and the National Science Foundation where 
we have real concrete partnerships that I think will 
demonstrate this business model, that if we can work together, 
develop cohesive Federal Government strategies and then 
leverage partners, we can get more dollars, more energy and 
more outcomes against the goals we all collectively care about.
    Mr. Goodlatte. Thank you. Well, I share that ambition and 
look forward to working with you. I know many other Members of 
the Committee do as well.
    I thank the Chairman.
    The Chairman. The chair recognizes the gentlewoman from 
Colorado, Ms. Markey.
    Ms. Markey. Yes, thank you very much.
    Dr. Shah, as a new Member of the Committee, I wasn't here 
when the farm bill was passed. I have a couple of questions on 
some programs that are of particular interest to me in my 
district in Colorado. The first one is the Beginning Farmer and 
Rancher Development Program. Can you talk a little bit--you 
mentioned in your statement here that you will soon be 
announcing the first round of these grants and grants will be 
up to $300,000. Can you talk a little bit about the process, 
some of the criteria. I guess it is available to farmers or 
ranchers who have 10 years or less experience, correct?
    Dr. Shah. Correct.
    Ms. Markey. But if you could talk to me a little bit about 
when those grants will be available and what is some of the 
criteria that you are looking at?
    Dr. Shah. Sure. Well, first, we are thrilled to be able to 
be implementing that program and believe very strongly in it. 
The 2007 Census data shows the importance of that effort 
because of the tremendous growth in the numbers of farmers and 
producers in that category. That has been very exciting.
    We did receive 194 applications and made 29 awards, so the 
competition and the award rate was about 14 percent, which 
seems like a healthy percentage. The breadth of interest 
demonstrates that the farm bill and the leadership to create 
the program was, in fact, a great thing because people have 
been responding very actively.
    I think we are planning on making more than $17 million in 
awards and, as you point out, the $300,000 per award is the 
cap, and the criterion for eligibility is within 10 years of 
engaging in the activity.
    Ms. Markey. Typically, what kinds of projects are people 
using the grant money for?
    Dr. Shah. Well, I could get back to you with the specific 
list of programs and projects that are involved in that. It is 
a pretty broad range of things, and so I will send a formal 
letter back by the end of this week with some detail on that, 
if that is helpful.
    Ms. Markey. That would be helpful. And my next question was 
on the Expanded Food and Nutrition Education Program. It looks 
like you have 1890 Institutions, Land-Grant Institutions are 
eligible to receive these grants. Do you know, has that process 
started right now. Have you awarded any funds through that 
program yet?
    Dr. Shah. Yes, that process has started. Like all of these 
programs there has been a consultative process and then an 
award related to it, so I could get you more information on 
that in particular.
    That is an area where we are actually very excited to take 
that forward in a more expanded way in future years because of 
the President's and the Administration's deep commitment to 
human nutrition, and particularly around child nutrition in 
certain communities. I think that is an important program that 
is getting a lot of visibility. And we look forward to working 
with that in a more expanded way in the future.
    Ms. Markey. Okay. If you could just get me some information 
on where you are with that program, I would appreciate it.
    Dr. Shah. Sure. It is, for 2009, it is fully awarded. We 
will send more detailed information about that.
    Ms. Markey. Okay. Thanks very much, good.
    The Chairman. The chair thanks the gentlewoman and 
recognizes the gentleman from Kansas, Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you very much.
    Dr. Shah, thank you for the opportunity of questioning you 
and visiting with you this morning. I have one broad question 
and a couple of more specific ones.
    In the stimulus package, significant dollars were allocated 
toward NIH and DOE research funding, huge--let me use the words 
significant research grants were provided. But it is my 
impression that nothing in the stimulus package was available 
for USDA research.
    Is that true, and is there an explanation for why that is?
    Dr. Shah. I believe that is true, and I believe that is a 
tremendous wake-up call for why we need to do things very 
differently. The one thing I can say is that I have had the 
opportunity to visit Agricultural Research Service centers 
around the country and our universities and great scientists 
and members of our own staff.
    I think people have broadly recognized that that was, in 
fact, very true. NIH received more than $10 billion, and the 
agricultural sciences received virtually nothing. We are 
taking--a lot of what I talked about is the transformational 
change we are trying to implement, restructuring how we do 
work, thinking in a more long-term, more focused way and re-
prioritizing a set of issues where we think we can have big, 
big breakthroughs that contribute to the President's agenda, 
will hopefully position us in a different way and raise the 
visibility and value of this work.
    Mr. Moran. Are you suggesting that there is something 
structurally inadequate or wrong at USDA different than NIH or 
DOE, or it is just a matter of priorities within the 
Administration, a matter of marketing, we get forgotten.
    Dr. Shah. I just don't think it is a matter of marketing. I 
think there are things we can do to be more relevant to our own 
stakeholders and to a broader cut of the American public. I 
think there is a lot more that we can do to accelerate the pace 
with which breakthroughs leave the laboratory and get into 
broad use.
    We can expand private partnerships in a way that would 
increase not only the visibility, but also the efficiency of 
our work in a significant manner. We can make longer term, more 
focused grants that tackle whole problems as opposed to 
spreading that money very thin, and sometimes in a way that 
achieves some great scientific peer-reviewed publications, but 
doesn't always lead to the kinds of big breakthroughs that you 
can take back to constituents in a way to show concrete 
progress.
    We have had plenty of examples of success, but this is a 
big enterprise, and we can be better at this. That is what we 
are very focused on doing.
    Mr. Moran. I appreciate that. My more specific questions, I 
have, as well as several other Members of the House, have taken 
a significant interest in the Veterinary Medicine Loan 
Repayment Program. We are still waiting on implementation. The 
latest report I had from USDA was at the end of September would 
be a release, a solicitation for applications. Are you aware 
and involved in any update?
    Dr. Shah. I am aware and involved in that effort and 
recognize that this has been a process that has taken some time 
to come to fruition, and so we are looking into that quite 
carefully. There was a public comment period on this effort 
that closed on September 8. We have entered into agreements 
with Health and Human Services to monitor some of the efforts 
as we go forward.
    We are trying to learn very much from their physician 
programs that have similar tools and a similar approach as we 
approach this effort, and we take this very seriously. I 
recognize that it is still underway and believe that the 
timeline that you identified is still the timeline that we are 
on.
    Mr. Moran. So, at the end of September is there still time 
for solicitations? That is almost an immediate announcement.
    Dr. Shah. We will have completed the rule, I am sorry. We 
will have completed the rule for the program by the end of 
September.
    Mr. Moran. Okay. Incidentally, I was told by your 
predecessors a previous Administration ago, so this isn't a 
criticism of you, but this fall, loan repayment would be in 
place. It doesn't sound like we are there yet.
    Dr. Shah. No. I don't think we are there yet. I will 
continue to look into this, and we can get back to you with 
more detailed information. There are a number of aspects of 
this that are more complex that we are looking into, as you are 
aware of, with respect to consolidated loans and other aspects.
    Mr. Moran. If you will, just have somebody call or brief me 
or send a memo describing where we are and how quickly we can 
get to where we need to be.
    Dr. Shah. We will.
    Mr. Moran. My final comment is more of a question. I just 
have a couple of seconds remaining. This is a Department of 
Energy issue, not directly a Department of Agriculture issue, 
but we care a lot about section 905.
    It is from the farm bill. It is the Energy Program for 
Advanced Biofuels. The Department of Energy is proposing a rule 
that would prohibit any foreign-owned bioenergy company from 
accessing those grant funds. That is not at all provided for in 
the legislation. We are working with conferees to change that.
    But I would think that the Department of Agriculture 
should, does, have a very strong interest in that program. If 
you can communicate with the folks at the Department of Energy 
that their rules may be very damaging to the ability to 
implement this program. Our cellulosic ethanol plant in Kansas 
is Abengoa. They are writing rules that simply prohibit it from 
being a participant in the program despite the fact that it has 
been a grant recipient in the past.
    I would hope there would be some coordination. I have 
significant faith in the Department of Agriculture in regard to 
these programs and would like for you to weigh in on behalf of 
this issue. I thank you.
    Dr. Shah. I am not aware of that specific rule, but we will 
take that forward.
    I will say in a broader context that the bioenergy research 
portfolio and making sure that we have a cohesive government-
wide approach that includes DOE and multiple parts of USDA, and 
multiple parts of DOE, has been a top priority for us. We have 
been in a deep and very effective conversation with them, I 
believe, at a high level, and we hope to take that forward in a 
significant manner.
    Mr. Moran. Thank you very much. I raise the topic because I 
assume the Department of Energy and Department of Agriculture 
would be headed in different paths on this topic and 
coordination is an important consideration.
    Thank you, Mr. Chairman.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from Michigan, Mr. Schauer.
    Mr. Schauer. Thank you and congratulations on your new 
position.
    I am from Michigan. We have the highest unemployment rate 
in the country. Agriculture also represents the second largest 
industry in our state and is growing. We also have the second 
most diverse agricultural economy in the country, so we grow 
and produce lots of different things. I look forward to getting 
to know you better and having you get to know us better.
    Senator Stabenow is on the Agriculture Committee on the 
Senate side.
    A quick point, and then I want to talk in the time we have 
about jobs, and I have a specific issue. But I want to let you 
know that Kellogg Company is based in my district, as is the 
Kellogg Foundation, actually my hometown of Battle Creek. The 
CEO of the Kellogg Company is coming to meet with some USDA 
officials on Monday, as I understand it.
    I was with them as they unveiled their expanded research 
and development facility downtown. But David Mackay is coming 
specifically to meet with USDA officials about child nutrition 
and obesity, so if you could watch out for him. I don't know if 
you will be participating in that or not.
    They understand that it is the right thing to do. There are 
incredible economic opportunities to produce healthy foods, 
including for kids. It certainly relates to our health care 
conversation about reducing obesity.
    A point about jobs, I asked to be on this Committee because 
it relates to research and energy, and combining agriculture 
with economic development. I am pleased to hear your testimony 
about biomass and bioenergy.
    I would put another thing on your radar screen and ask you 
to sort of comment generally. I am working with a diesel 
company in my district it is in Adrian in Lenawee County along 
the Ohio border. It is called NextDiesel. Obviously that 
industry has struggled.
    They are focusing more and more on research and development 
and looking for new forms of biomass. They are working with 
Michigan State University, the best land-grant institution in 
the country--I am a little biased. But they are wanting to 
position themselves as a center of energy excellence. I just 
wanted to ask you to talk about how you can help a state like 
mine, an industry like that, so that we can create jobs.
    Dr. Shah. Thank you. I appreciate those comments on 
multiple fronts. Also, I was born in Ann Arbor, Michigan.
    Mr. Schauer. Go Blue. Not a bad university.
    Dr. Shah. Yes. I thought the Lions-Redskins game wouldn't 
come up today, but you gave me the opportunity to raise it.
    Mr. Schauer. I am glad I brought it up.
    Dr. Shah. I will go carefully.
    I did want to mention that on child nutrition, that USDA 
has tremendous unique research assets, the six human nutrition 
research programs that are part of ARS are our intramural 
programs they are really world-class assets in this space that 
are far less recognized and visible than I think they should 
be.
    One of the things we are really doing is trying to refocus 
and elevate that portfolio of work, expand partnerships with 
the National Institutes of Health and work with foundation and 
firms, Kellogg in both contexts, to help do that. So that work 
has advanced. I would be happy to share more thoughts on that 
with you over time and hear your input.
    In terms of the question around jobs and biodiesel and 
biomass, just two observations, the first is as part of our 
work with the Department of Energy and is, in part, rethinking 
a broader bioenergy research investment strategy for the USDA. 
We are trying to refocus and rededicate ourselves to biomass 
and to dedicated feedstocks and to biofeedstocks broadly. That 
will be a major effort going forward.
    I would look forward to learning more about this specific 
firm and whether it would participate or qualify in some of the 
small business innovation efforts that have taken place across 
USDA. I just don't know from that description whether that 
would be the case, but I am committed to following up on that.
    Mr. Schauer. Great. Thank you. I will be in touch with you. 
Thank you so much. Thank you, Mr. Chairman, I yield back.
    The Chairman. The chair thanks the gentleman and reminds 
the gentleman when we are having hearings for the next farm 
bill we will take you to State College and to Blacksburg, and 
we can compare notes.
    Mr. Schauer. I would be glad to do that.
    The Chairman. The chair now recognizes the gentleman from 
Nebraska, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Thank you, Doctor, for 
taking the time to be here and certainly for your service.
    I will start out, and I don't want to put you on the spot, 
but I do want to see if you might have an update on what the 
Department is doing regarding Roundup Ready sugar beets. There 
is a bit of consternation, certainly among my constituents, 
that it would appear that the process was abided by and yet 
that wasn't enough. Could you speak to that?
    Dr. Shah. Certainly. That process is taking place in a 
different mission area within the Department. I think what 
would be most effective is for me to take that back and ask 
them to follow up with you very rapidly in a very more formal 
way so that you have the information on what they are doing.
    I can tell you the general principle, we are very 
committed. And one of the things I want to focus on is making 
sure research outputs get into use very rapidly. The reference 
to Dr. Borlaug is one of the best examples of that. So we 
recognize the need to have streamlined processes to make that a 
reality, so that people can start to benefit rapidly from safe, 
effective, and important research breakthroughs.
    Mr. Smith. Sure, and I appreciate that. I might even touch 
on the frustration that many have that even though science 
abounds in many respects, in virtually all respects to some of 
these things, that doesn't prove to be enough. I guess I urge 
you to hang in there and keep fighting the good fight.
    Another question that I have, to what extent was the 
National Agricultural Research, Extension, Education and 
Economics Advisory Board involved in the development of the 
roadmap that will be released?
    Dr. Shah. Well, I have had a number of specific discussions 
with the members of the NAREEE board. We are going to be 
working with them later in October when they have their major 
meeting here in Washington, D.C.
    They have been consulted and involved throughout the 
process of developing the roadmap. In an equally important 
manner, we will keep that group incredibly involved, going 
forward, as we really implement NIFA and make some of the 
changes that really represent the embodiment of what the 
roadmap will speak to.
    Mr. Smith. All right. Thank you. Thank you, Mr. Chairman.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentlewoman from Pennsylvania, Mrs. Dahlkemper.
    Mrs. Dahlkemper. Thank you, Mr. Chairman, and thank you, 
Dr. Shah for your testimony today.
    In the farm bill we designed and dedicated a new Specialty 
Crop Initiative. Can you describe the kind of interest you have 
had in this program thus far, how many applicants did you 
receive and how many awards were made in the first round?
    Dr. Shah. I can. We have been very focused on implementing 
the Specialty Crop Initiative, so that is something that we 
have been very excited about. I don't actually have the number 
in front of me of the number of applicants we had, but I 
believe we have taken that forward in a very strong way, and I 
can get you more information. I just am not looking at the 
actual numbers.
    Mrs. Dahlkemper. That is okay. I would appreciate that. 
When do you expect to announce the second round?
    Dr. Shah. I am not sure. I will get back to you.
    I do know we have received a large number of applications 
in the first round, six times more than the resources that were 
available, so I would expect there is a lot of interest in the 
second round.
    Mrs. Dahlkemper. Yes. If you can get back to me, I would 
appreciate that.
    Dr. Shah. I certainly will.
    Mrs. Dahlkemper. The other question is just sort of a 
general inquiry, as a Member of Congress because we all agree 
there is great research being done by the USDA. Sometimes I 
don't think we hear about that good work being done, and the 
public doesn't hear about it. Hopefully the changes in the farm 
bill will make us better advocates.
    I guess I am asking you what is the single most important 
thing you think we can do as Members of Congress to better 
promote agriculture research?
    Dr. Shah. Well, thank you for that question. I think that 
is a great question. I think to some extent you have already 
done so much in establishing some of these tools in the farm 
bill that allow us to do work very differently, going forward.
    I think the extent to which you can highlight really big 
breakthroughs and make it relevant to your every-day 
constituents and their lives, and help people recognize that we 
have a food supply that we spend ten or eleven percent of 
disposable income on food and that frees up a lot of income for 
other things. We need to deal with some very, very big 
challenges in agricultural production as the climate changes, 
that likely will happen over the next several decades, put 
downward pressure on production.
    There are a billion people around the world that don't get 
enough to eat. U.S. agriculture can play a big, productive and 
responsive role in that area, and for some of the things that 
people probably hear about regularly, child obesity, the crisis 
in that area, bioenergy and the need for us to have real 
independence as a country. For some of these things that get a 
lot of attention, agricultural science can really help 
contribute to and solve some of these problems.
    I think I referenced earlier my experience at the Gates 
Foundation. We had the opportunity to look at a broad number of 
things we could do, and we settled on agricultural research 
because of its tremendous capacity to create human welfare 
gains around the world. I don't think many people are aware of 
how central agriculture research can be in that capacity.
    As we are trying to put in place some really tough and 
important changes in how we do the work, I think your being a 
visible and prominent advocate for the value of this work, as 
it pertains to both our food supply and energy goals, our 
foreign security goals, as well as our own human health and the 
health of our kids, that will be a tremendous step forward. So, 
thank you.
    Mrs. Dahlkemper. I look forward to continuing to work with 
USDA. I am a former dietician, so a lot of these nutrition 
issues and research being done there is obviously of a keen 
interest to me. Thank you for that.
    My last question, because of the news coming out of the 
Senate today, if climate legislation is enacted, there would be 
a huge workload ahead in terms of research and implementing it. 
I guess I am just asking, currently are you taking steps that 
would be necessary to ensure that we have the methodologies in 
place to measure and validate the work that might be going 
forward, the practices that might be going forward?
    Dr. Shah. Well, thank you, I very much appreciate that 
question. We have spent a lot of time thinking about that. The 
answer is yes, especially in the areas you reference of 
mitigation and how agriculture defined very broadly could 
participate in potential systems related to emissions and 
emissions trading.
    We have been thinking about how to leverage the GRACEnet 
system that the Agricultural Research Service has used with 
some of our extramural efforts to reach universities and create 
the kind of large-scale standard and protocol-based consortia. 
So that people would have good answers to simple questions that 
we really need to have with a great deal of validity, in order 
to actually facilitate and operate those types of systems and 
ensure that producers have the ability to participate in those 
types of systems, going forward.
    So that is an area we can add unique value. We have a lot 
of unique research assets that are already doing it. With some 
smart and integrated investments we can really make sure that 
that value is realized very quickly.
    Even in a broader context, we are putting together a full 
climate science strategy for agricultural research that I think 
will be a good way to connect with partners like the National 
Science Foundation and others in our efforts to leverage some 
of their resources in this area as well. On both fronts we are 
excited to take that work forward and thank you for the 
question.
    Mrs. Dahlkemper. Thank you very much. My time is up. I 
yield back.
    The Chairman. The chair thanks the gentlewoman. Before I 
recognize the gentleman from Pennsylvania, I will yield to the 
gentleman from Kansas.
    Mr. Moran. Mr. Chairman, thank you. I always hate to admit 
that I erred in my comments. But it is actually the Department 
of Agriculture who is implementing this rule, not the 
Department of Energy. So my criticism is more directed at USDA 
than I intended. I was trying to be too nice, Doctor.
    I have done my part in raising this topic with you. Again, 
it is not within your domain, but it is something that needs to 
be coordinated with the Department of Agriculture. The end 
result, we could be importing biofuels and processing them and 
they would receive the grant. But a company that is not owned 
by United States citizens is not eligible. If you could help us 
with that I appreciate it.
    Thank you for that opportunity, Mr. Chairman, for that 
courtesy.
    The Chairman. The chair recognizes the gentleman from 
Pennsylvania.
    Mr. Thompson. Thank you, Mr. Chairman.
    Dr. Shah, thank you for attending today and congratulations 
on your new position. Just so you know, there are certainly 
many of us that can affirm the complete relevance of USDA and 
how important that is. I want to thank you for the research 
that is being done.
    Another fine land-grant university that the Chairman 
alluded to, Penn State, where with the support of USDA is doing 
research on dairy profitability, entrepreneurship, milk safety, 
many projects like that. USDA is certainly very, very relevant 
to the entire country.
    My first question is what is being done to strike the right 
balance between plant health and animal health research 
funding? It seems right now that it is heavily skewed towards 
crop science as opposed to animal health. What is that right 
balance that you see?
    Dr. Shah. Thank you for that question. As we go forward, we 
are really framing a research agenda around a broad range of 
issues and trying to refocus and narrow the specific number of 
engagements we have, so that we can deliver breakthroughs in a 
broad number of areas.
    I think, as part of doing that, we have to recognize that 
animal health is a significant priority and will continue to be 
in that context. We have a REEO officer dedicated to that 
specific area. We will continue to have someone dedicated to 
that area. We will build that, a strong research portfolio in 
that area going forward.
    I am not sure that I can answer, in specific terms, what 
the specific investments are, and how we should think about the 
ratio of investment across those two things. But we are, 
certainly both areas, plant production, animal production link 
closely to a broad range of priorities and we will continue to, 
as we go forward.
    I am also happy to follow up on a more specific question 
just in terms of pulling our numbers in those areas and sharing 
them with you.
    Mr. Thompson. Great. I appreciate that very much. I have 
always been a strong advocate for biofuels, a little different 
area that you had referenced in your written report.
    Has USDA been increasing grants within the CSREES for 
biomass and, also, do you have any comment on how these grants 
affect biomass from national forests?
    Dr. Shah. Well, yes, we have been increasing our 
investment, and part of that is through the mandatory programs 
that have been implemented. Part of that is through our desire, 
going forward, to make this a big, big part of our research 
agenda as we take NIFA forward and to use an increasing portion 
of the AFRI window, the competitive research windows, to work 
on this problem and deliver real breakthroughs in the science.
    A second way that we can elevate and accelerate investment 
in this area is to successfully partner with, especially, the 
Department of Energy. By relative standards, we are probably a 
\1/10\--\1/9\ or \1/10\ of the total spending in bioenergy, 
broadly, and the rest of it is mostly DOE. Our goal has been to 
say can we work to what is the right balance, what are the 
right priorities and try to leverage some of their resources 
against our feedstock development and biomass development 
efforts.
    And then, finally, our woody biomass effort is very much a 
part of it. We are working with the Forest Service on that as 
well as our ARS facilities and our other efforts. That is 
certainly a big component of it as we are go forward.
    Mr. Thompson. I appreciate it. Turning to a more specific 
issue, in terms of the folks that are out there doing the 
research and the educators: are ag students, future 
researchers, educators and extension specialists walking away 
from the field for lack of public investment? Is there a trend 
that you are seeing in terms of researchers?
    Dr. Shah. No, I appreciate that. I see two trends. One is 
there has been a long-term relative, either flat or declining 
level of investment in agricultural science in this country, 
very broadly, for a number of decades. I think that has meant 
that you tend to see a lot of agricultural scientists doing a 
number of other things because they get their funding from NIH, 
or NSF, or someone else. I think that also affects young 
scientists who then identify priorities and maybe feel that 
they will have a longer and a more productive career in some 
other fields.
    But I will say that I really believe over the last few 
years--and I credit the Committee with its leadership with NIFA 
and the Chief Scientists' and some of the bold steps and also 
some of other things happening in our world, people are 
starting to refocus on how central agricultural science is to 
solving things they hear about every day.
    Our food production and the importance of that food 
production system was highlighted so dramatically last year, 
and people paid attention. I think, especially, the number of 
kids I get that send e-mails and want to be interns in our 
programs has probably gone up pretty significantly. A lot of 
that is around bioenergy or around health or nutrition. So I am 
seeing both trends and I hope that we can leverage the more 
optimistic one and change the make-up of our human resources as 
we go forward.
    Mr. Thompson. Well, the increased interest sounds like good 
news to me. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from Maryland, Mr. Kratovil.
    Mr. Kratovil. Thank you, Mr. Chairman.
    There was money that was designated for a new Specialty 
Crop Initiative in the farm bill. Can you describe the interest 
you have had in that program and how many applications were 
received and how many awards were granted. What do you expect 
to announce in the second round?
    Dr. Shah. We have had broad interest in that program. I 
will certainly be willing to follow up with more detailed 
information around the number of applicants and the number of 
awards. I think we had more than $300 million of total 
applicants in and were able to make $50 million in awards 
against that, and we soon will commence with the second round 
of investment in that area. But I can follow up with far more 
detail so that you will have a specific answer to that 
question.
    Mr. Kratovil. Okay. You have apparently committed publicly 
to doubling--forgive me in these questions have already been 
asked. But you have apparently committed publicly to doubling 
research in 5 years primarily through AFRI. Do you anticipate 
the Administration is going to request an amount for that in 
2011 that indicates a commitment to that goal?
    Dr. Shah. Yes, I appreciate the question. I am unable to 
comment on the Fiscal Year 2011 budget specifically.
    But I do think that Secretary Vilsack and President Obama 
and the Science and Technology Policy Group have shown a 
tremendous commitment to agricultural science. They see, and I 
feel very fortunate to be part of an Administration, working 
for a Secretary who has such a direct and specific commitment 
to science and to reforming the way that we work, so we are 
making sure that we are demonstrating that our science is 
accountable to people very broadly and rapidly in a way that is 
different from the way it has been in the past. I think both of 
those things go hand in hand, and we will continue to work with 
that team to try and get there.
    Mr. Kratovil. I know this will shock you, but there have 
been some allegations that our stimulus funding hasn't done 
anything. I know that is shocking to you.
    But ARS received some stimulus money. Has that been spent 
and, if so, on what?
    Dr. Shah. Most of the ARS stimulus resources were received 
for specific facilities upgrades, and we can follow up with the 
specific list of those investments and tracking the progress 
around each one. I have anecdotally had the opportunity to 
visit some of our facilities that are benefiting from those 
resources.
    I can say that in some cases, the work is underway. People 
are being employed to make those upgrades and improvements.
    What I am particularly proud of is that the prioritized 
list of projects are things that are quite important for our 
ability to have a strong and robust intramural science 
capacity, going forward. I feel like those resources are well 
used from a long-term scientific investment perspective and we 
will follow up with more detail.
    Mr. Kratovil. That would be good. Do you find that people 
are aware, or what are we doing to make people aware of the 
fact that that stimulus money is being used for those purposes?
    Dr. Shah. Well, I will just say I had the opportunity to 
visit our Philadelphia-based research center, the Eastern 
Regional Research Center, which is an outstanding program with 
a tremendously diverse and effective group of scientists. I met 
with maybe 200 people there, and to a person, they fully 
recognized and appreciated the fact that the stimulus resource 
investment in that facility was going to really transform their 
ability to work together to do great science, to work 
specifically on issues like food safety and bioenergy and some 
of the things we have been talking about.
    So, certainly at that level, there is a great recognition 
of it. And we probably could do more, especially in the 
agricultural science part of this larger question, to make sure 
that there is a broader and general awareness. So I appreciate 
your comment.
    Mr. Kratovil. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Sure. I thank the gentleman.
    Dr. Shah, thank you very much for your testimony and the 
answers that you have given to our questions.
    We would now like to welcome our second panel to the table: 
Dr. D.C. Coston, Vice President for Agriculture and University 
Extension, North Dakota State University, on behalf of the 
Board of Agriculture Assembly, Association of Public and Land-
grant Universities, Fargo, North Dakota.
    Mr. Joseph Layton, Jr., soybean, corn, and grape producer, 
on behalf of the National Coalition for Food and Agricultural 
Research, American Soybean Association, and the National 
Agricultural Research, Extension, Education, and Economics 
Advisory Board, Vienna, Maryland.
    And, Dr. Coston, before you begin, I now yield to the 
gentleman from Maryland for an introduction.
    Mr. Kratovil. Thank you, Mr. Chairman, Mr. Ranking Member.
    It is my pleasure this morning to welcome Joseph Layton, 
Jr., from Vienna, Maryland, located in my home district, 
Maryland's First Congressional District, on the beautiful 
Eastern Shore. The Eastern Shore, as I am sure you know, has a 
rich tradition in agriculture, and folks like Mr. Layton have 
been, and continue to be, a vital part of that tradition.
    Farming since 1970, Mr. Layton has traditionally produced 
soybeans and corn. But, as he mentions in his statement, he has 
now moved into new territory, producing grapes, which speaks to 
the sustainability of an opportunity for farming on the Eastern 
Shore.
    Over the years, Mr. Layton has donned many hats in the 
farming community, making him obviously a very worthy 
participant in the review of the implementation of research 
initiatives found in the 2008 Farm Bill.
    One of the reasons I wanted to join the Agriculture 
Committee was to have the opportunity to work with and learn 
from producers like Mr. Layton, and to promote and preserve 
farming in Maryland's First Congressional District. So it is an 
honor for me and privilege to not only represent the farmers in 
my district but to have Mr. Layton here with us today.
    And welcome, sir.
    The Chairman. I thank the gentleman.
    And, Dr. Coston, you may begin when you are ready.

      STATEMENT OF D.C. COSTON, Ph.D., VICE PRESIDENT FOR
          AGRICULTURE AND UNIVERSITY EXTENSION, NORTH
   DAKOTA STATE UNIVERSITY, FARGO, ND; ON BEHALF OF BOARD ON 
              AGRICULTURE ASSEMBLY, ASSOCIATION OF
               PUBLIC AND LAND-GRANT UNIVERSITIES

    Dr. Coston. Thank you, Mr. Chairman, for the opportunity to 
appear before the Subcommittee.
    My testimony today will be in three parts. First, I will 
describe the major elements of the research title that pertain 
to land-grant universities. Second, I will outline our view of 
the progress made to date by USDA. Third, I will discuss what 
remains to be done, in our opinion, to complete the 
implementation process.
    First, the land-grant provisions in the bill: The most 
important provision for the land-grant system was creation of 
the new National Institute of Food and Agriculture, a move 
designed to elevate food and agricultural science and education 
to a higher level. To accomplish that objective, the National 
Institute is to be led by an eminent scientist who will manage 
both the agency's capacity programs, which provide critical 
base funding for the 1862, 1890, and 1994 land-grants, and also 
the competitive programs open to a broader array of 
institutions.
    All CSREES capacity programs were moved to the National 
Institute and re-authorized. The flagship competitive grants 
program formerly known as the National Research Initiative was 
expanded and is now known as the Agriculture and Food Research 
Initiative. This program permits the agency to fund a full 
spectrum of basic, applied, and integrated research, extension, 
and higher education efforts through competitively awarded 
grants.
    Title VII also established four new National Institute 
programs that provide competitive grants for organic 
agricultural research, specialty crops research and extension, 
biomass R&D, and support for beginning farmers and ranchers. 
These four programs are authorized to receive both mandatory 
funding and appropriated sums.
    Second, implementation progress: USDA and CSREES issued, 
and the land-grant system responded to, three formal requests 
for comments. We also provided written recommendations on 
another Title VII matters. Rather than reiterate all our 
suggestions, I ask that the full text of our comments be 
entered into the hearing record.
    The Chairman. Without objection.
    Dr. Coston. Thank you.
    [The document referred to is located on p. 29.]
    One of the documents I have included for the record makes 
recommendations on the structure of the Under Secretary's 
Research, Education and Extension Office. As noted in the 
written statement, we were pleased by the quick acquisition to 
get the six division chiefs in place and the highly qualified 
individuals who were selected. However, the law specifies that 
the REEO office may contain as many as 30 individuals. And 
given the importance of the tasks at hand and the anticipated 
workload, we believe it would be wise to provide each division 
chief with at least one deputy.
    Third, the unfinished agenda: Mr. Chairman, my written 
testimony describes several areas that still need attention. 
Let me make six summary observations.
    One, the National Institute must become a fully functioning 
agency as quickly as possible after October 1st. Otherwise, the 
agency could be at a significant disadvantage as its Fiscal 
Year 2011 budgetary priorities are reviewed and finalized by 
OMB.
    Two, we are pleased that Dr. Roger Beachy will become 
Director of the National Institute on October 5th. We look 
forward to collaborating with him and Dr. Shah as they finalize 
the National Institute structure and address other pressing 
start-up issues.
    Three, if Dr. Shah and Dr. Beachy move forward with what we 
understand to be a four-institutes model, all elements of the 
land-grant system--experiment stations, cooperative extension 
services, academic programs, international programs, and 
minority-serving institutions--must be well-represented within 
each of these institutes.
    In addition, the structure must clearly and unequivocally 
reflect the fact that extension and education are key missions 
of the entire agency. And let me reiterate that a focus on 
family, youth, and community is vital for the future of rural 
America.
    Four, that the four new research and extension programs 
with mandatory funding are accomplishing precisely what this 
Committee intended, and the mandatory funding must continue to 
be protected.
    Five, the Committee must make permanent the legislative 
language included within recent agricultural appropriations 
bills, permitting universities to count their unrecovered 
indirect costs against the matching requirements in certain 
competitive programs, such as the Specialty Crops Research 
Initiative.
    Six, the National Institute will only reach its full 
potential through greatly enhanced funding. Therefore, we 
strongly urge the Members of this Committee to continue working 
with Members of the Appropriations Committee to ensure that all 
National Institute programs are funded at their full authorized 
levels.
    Mr. Chairman, let me thank you, Ranking Member Goodlatte, 
and your capable staff--Anne Simmons, Nona Darrell, and John 
Goldberg--for helping to create this unique opportunity to 
advance food and agricultural research, education and 
extension.
    Creation of the National Institute represents a once-in-a-
generation opportunity to advance and expand food and 
agricultural science and education within the United States and 
thereby improve human health, agricultural productivity, and 
rural vitality. We must all rise to the challenge and help the 
USDA leadership develop a well-structured and adequately funded 
National Institute of Food and Agriculture.
    Thank you.
    [The prepared statement of Dr. Coston follows:]

     Prepared Statement of D.C. Coston, Ph.D., Vice President for 
 Agriculture and University Extension, North Dakota State University, 
 Fargo, ND; on Behalf of Board on Agriculture Assembly, Association of 
                   Public and Land-grant Universities

    Mr. Chairman and Members of the Subcommittee, I am pleased to 
appear before you on behalf of the Board of Agriculture Assembly (BAA) 
of the Association of Public and Land-grant Universities (APLU) to 
discuss implementation of the Research Title of the Food, Conservation, 
and Energy Act of 2008 (P.L. 110-246).
    The BAA's Farm Bill Committee, which I chair, and many individuals 
throughout the land-grant system were very involved in helping to craft 
Title VII of the 2008 Farm Bill, which reshaped the USDA science 
structure and re-authorized the many research, extension, and teaching 
programs that sustain land-grant universities and related institutions 
in all 50 states, the District of Columbia, and the insular areas.
    My testimony today is in three parts. First, I will briefly 
describe the major elements of the Research Title that pertain to land-
grant universities. Second, I will outline our view of the progress 
made by USDA to implement these provisions. Third, and finally, I will 
discuss what remains to be done to fulfill the goals set forth by the 
land-grant system in our CREATE-21 effort to ``Create Research, 
Education, and Teaching Excellence for the 21st Century,'' which--as 
you know--formed the basis for much of the Research Title.

Land-Grant Provisions in the 2008 Farm Bill
    Without a doubt, the most important provision for land-grant 
universities was the creation of the new National Institute of Food and 
Agriculture (NIFA). Building upon the success of the joint Federal-
state partnership funded through and overseen by the Cooperative State 
Research, Extension, and Education Service (CSREES), NIFA will elevate 
food and agricultural science and education to a higher level.
    To accomplish that objective, NIFA will be led by an eminent 
scientist appointed by the President to a 6 year term. The NIFA 
Director will manage the agency's capacity programs which provide 
critical base funding for the 1862, 1890, and 1994 land-grant 
institutions and the competitive programs which fund research, 
extension, and education efforts at land-grants, as well as other 
public and private universities.
    The NIFA Director is to be aided and guided in this work by the 
USDA Under Secretary for Research, Education, and Economics (REE) and 
his high-level team within the newly created Research, Education, and 
Extension Office (REEO). The REE Under Secretary, who is now the Chief 
Scientist at USDA, is charged with producing a USDA Science Roadmap and 
coordinating and managing the Department's extramural programs funded 
primarily through NIFA and the intramural programs conducted by the 
Agricultural Research Service (ARS) and the Economic Research Service 
(ERS).
    All of the tried and true capacity programs previously managed by 
CSREES were moved to NIFA and re-authorized for the 5 year life of the 
bill. The flagship competitive grants program at CSREES--the National 
Research Initiative--was expanded significantly and is now known as the 
Agriculture and Food Research Initiative (AFRI). This key program 
permits the agency to fund a full spectrum of basic, applied, and 
integrated research, extension, and higher education efforts through 
competitively-awarded, peer-reviewed grants.
    In addition to AFRI, the 2008 Farm Bill authorized four new NIFA 
programs that provide competitive grants for organic research, 
specialty crops research and extension, biomass R&D, and efforts that 
help beginning farmers and ranchers. These four programs are authorized 
to receive mandatory funding and appropriated sums. (Only the mandatory 
funding has been provided to date.)

Implementation Progress
    Overall, I would observe that USDA has a good record when it comes 
to implementation of the most significant elements of Title VII. In 
this portion of my testimony, I will describe the accomplishments made 
over the last 16 months, leaving a discussion of the unfinished items 
until the next section.
    Before the Bush Administration left office, Dr. Gale Buchanan, then 
REE Under Secretary, assumed the mantle of USDA Chief Scientist, began 
work on the Roadmap, and named a distinguished group of individuals as 
directors of the six REEO divisions. Dr. Buchanan and Dr. Colien 
Hefferan, the CSREES Administrator, also moved quickly to make the 
first increment of mandatory funding under the Specialty Crops Research 
Initiative available for competition by September 30, 2008. Finally, 
USDA Secretary Ed Schafer issued an implementation memorandum on 
October 1, 2008, directing that the NIFA Director is to report to the 
REE Under Secretary and not directly to the Secretary. (The language in 
Title VII stated that the Director was to report to the Secretary ``or 
his designee.'')
    The land-grant system was generally supportive, but not entirely 
satisfied by these decisions. We would have preferred, for example, 
that the NIFA Director report directly to the Secretary, but we 
understand the absolute importance of close collaboration between the 
REE Under Secretary and the NIFA Director to ensure that the agency 
successfully achieves the ambitious goals established for it by this 
Subcommittee.
    With respect to the REEO staffing, we were pleased by the quick 
action to get the six division chiefs in place and the high-caliber 
individuals who were selected. However, the law specifies that the REEO 
may contain as many as 30 individuals and--given the importance of the 
tasks at hand and the anticipated work load--we believe it would be 
wise to provide each division chief with at least one deputy. Such a 
modest expansion could prove to be extremely beneficial, especially if 
the Administration moves forward, as has been rumored, to return the 
initial REEO division chiefs to the agencies from whence they came and 
to name distinguished scientists from outside USDA to these six 
positions under authority of the Intergovernmental Personnel Act.
    In addition to these actions, CSREES issued three formal requests 
for comment on programs created or changed by the 2008 Farm Bill. The 
BAA provided written comments and suggestions in each such instance and 
informal comments on other matters and rather than reiterate all of 
that here I ask that the full text of these comments be entered into 
the hearing record.

The Unfinished Agenda
    1. NIFA Establishment. Title VII requires that NIFA is to be 
established on or before October 1, 2009. We had anticipated that the 
Administration would move ahead with establishment before the statutory 
deadline, but given the Presidential transition, the press of other 
business, and the hundreds of tasks involved in a bureaucratic 
restructuring, such optimism was probably unrealistic.
    Nonetheless, we urge you to communicate to the Administration the 
importance of making NIFA a fully functioning agency as quickly as 
possible after October 1. The final quarter of the calendar year is an 
especially busy and critical period for development of the Federal 
budget and unless the agency and its director are ``up and running,'' 
NIFA could be at a significant disadvantage as its budgetary priorities 
are reviewed and finalized by the Office of Management and Budget 
(OMB).
    2. NIFA Director. Selection of the first NIFA Director is extremely 
important to the future of the agency (especially in these formative 
years) and we welcome the news that Dr. Roger N. Beachy, the founding 
president of the Donald Danforth Plant Science Center, will become the 
NIFA Director on October 5. Dr. Beachy is an extremely well-qualified 
scientist with impeccable credentials, proven management skills, a 
broad vision, and an open mind. We look forward to collaborating 
closely with him and Dr. Shah as they finalize the NIFA structure and 
address other pressing start-up issues.
    3. NIFA Structure. Representatives from the land-grant system have 
had several meetings with Dr. Shah since his confirmation as REE Under 
Secretary about the NIFA structure. Through these discussions we have 
learned that the Under Secretary and Dr. Beachy are considering an 
organization comprised of four divisions (or ``Institutes'') each of 
which will focus on broad subjects: (1) plant and animal production; 
(2) human nutrition and health; (3) food safety; and (4) communities 
and human capacity development.

    We believe that such a structure could prove advantageous, provided 
that all elements of the land-grant system_experiment stations, 
cooperative extension services, academic programs, international 
programs, and minority-serving institutions_are well represented within 
each of the divisions and that scientific outreach and education are 
key missions of the whole agency.

    The structure of NIFA, and the leadership of the Director, are 
vital if we are going to achieve what this Subcommittee envisioned with 
the creation of NIFA (as set forth in the Statement of Managers), 
namely that: ``NIFA will be commensurate in stature with other grant-
making agencies across the Federal Government, such as the National 
Institutes of Health and the National Science Foundation.''
    4. Mandatory Programs. The land-grant system is very pleased that 
congressional and executive branch decision-makers have (thus far) 
honored the mandatory funding provided to NIFA for the four programs 
mentioned previously. This was not the case for the previous mandatory 
program--the Initiative for Future Agriculture and Food systems 
(IFAFS)--which was routinely ``raided'' by either the Appropriations 
Committees or OMB. These new competitively-awarded and narrowly-
targeted programs are accomplishing precisely what this Committee 
intended and must be protected. Of course, I would be remiss if I did 
not mention that all of these programs could benefit by the 
appropriation of additional sums (as provided in the statute), but 
protecting the mandatory monies remains our main priority.
    5. Unrecovered Indirect Costs. We now have experience with 2 years 
of funding for one of these four programs, the Specialty Crops Research 
Initiative. Based upon this experience we recommend that the Committee 
consider making permanent the legislative language included within the 
last two Agriculture Appropriations bills permitting universities to 
count their unrecovered indirect costs against the matching 
requirements set forth in the statute for this and the other three 
programs with mandatory funding.
    6. REEO Structure and Operations. We made several REEO 
recommendations that have not yet been implemented. We reiterate those 
recommendations here, because we believe they still have merit:

  <bullet> Working as a team, the Under Secretary, Division Chiefs, and 
        other REEO personnel must enhance programmatic integration and 
        eliminate administrative duplication among NIFA, ARS, ERS, the 
        U.S. Forest Service, and the National Agricultural Statistical 
        Service, and maximize allocation of staff resources among these 
        agencies.

  <bullet> The Division Chiefs should utilize the land-grant system's 
        education and extension capability to deliver research results 
        produced by all agencies within USDA to the Department's 
        various stakeholders and customers.

  <bullet> The Division Chiefs should assist the Under Secretary in 
        identifying, prioritizing, and addressing continuing and 
        emerging agricultural research, education, and extension needs, 
        including funding requirements.

  <bullet> Each REEO division should be staffed by personnel with 
        professional experience in the division's respective mission 
        area(s).

  <bullet> In addition, personnel with families, youth, and community 
        development professional experience should be represented 
        throughout the REEO staff to ensure integration of these 
        functions into the operations of the individual divisions and 
        the Research, Education, and Economics mission area as a whole.

    7. NIFA Funding. The final issue that I would touch upon this 
morning is the matter of funding for NIFA's capacity and competitive 
programs. When the 2008 Farm Bill was under consideration, I often 
heard it said that NIFA would be a ``vessel'' ideally suited to receive 
increased Federal funding. That remains as true today as 2 years ago, 
even though there have been some missed opportunities along the way, 
such as the one-time increase of $200 million for AFRI in the American 
Recovery and Reinvestment Act that we sought but were not able to get 
included in the final bill.

    Clearly, this new agency will only reach its full potential through 
greatly enhanced funding. Therefore, we strongly urge the Members of 
the Agriculture Committee to see the efforts of their good work in the 
research title of the farm bill through to fruition by working with 
Members of the Appropriations Committee to ensure that all NIFA 
programs are funded at their full, authorized levels.

Concluding Remarks
    Mr. Chairman, let me thank you on behalf of the land-grant system 
for your leadership in drafting Title VII of the 2008 Farm Bill and 
your continued interest in the implementation of the statute as 
evidenced by today's hearing.
    Creation of NIFA represents a once-in-a-generation opportunity to 
advance and expand food and agricultural science and education within 
the United States and thereby improve human health, agricultural 
productivity, and rural development. We must all rise to the challenge 
and help the USDA leadership develop a well-structured and adequately 
funded National Institute of Food and Agriculture.
    To again quote from the Statement of Managers, ``The Managers 
intend for NIFA to be an independent, scientific, policy-setting agency 
for the food and agricultural sciences, which will reinvigorate our 
nation's investment in agricultural research, extension, and 
education.''
    We look forward to working closely with you, Under Secretary Shah, 
Director Beachy, and our mutual stakeholders to meet the high standards 
you set with the creation of NIFA.
    Thank you again for the opportunity to testify this morning. I 
would be delighted to answer any questions.

                              Attachment 1

Oral Statement of D.C. Coston
    Thank you, Mr. Chairman, for the opportunity to appear before the 
Subcommittee.
    My testimony today will be in three parts. First, I will describe 
the major elements of the Research Title that pertain to land-grant 
universities. Second, I will outline our view of the progress made to 
date by the USDA. Third, I will discuss what remains to be done in our 
opinion, to complete the implementation process.

First: Land-Grant Provisions in the Bill
    The most important provision for the land-grant system was creation 
of the new National Institute of Food and Agriculture, a move designed 
to elevate food and agricultural science and education to a higher 
level. To accomplish that objective, the National Institute is to be 
led by an eminent scientist who will manage both the agency's capacity 
programs which provide critical base funding for the 1862, 1890, and 
1994 land-grants and also the competitive programs open to a broader 
array of institutions.
    All CSREES capacity programs were moved to the National Institute 
and re-authorized. The flagship competitive grants program--formerly 
known as the National Research Initiative--was expanded and is now 
known as the Agriculture and Food Research Initiative. This program 
permits the agency to fund a full spectrum of basic, applied, and 
integrated research, extension, and higher education efforts through 
competitively-awarded grants.
    Title VII also established four new National Institute programs 
that provide competitive grants for organic agricultural research, 
specialty crops research and extension, biomass R&D, and support for 
beginning farmers and ranchers. These four programs are authorized to 
receive both mandatory funding and appropriated sums.

Second: Implementation Progress
    USDA and CSREES issued and the land-grant system responded to three 
formal requests for comments. We also provided written recommendations 
on other Title VII matters. Rather than reiterate all of our 
suggestions, I ask that the full text of our comments be entered into 
the hearing record.
    One of the documents I've included for the record makes 
recommendations on the structure of the Under Secretary's Research, 
Education, and Extension Office. As noted in the written statement, we 
were pleased by the quick action to get the six division chiefs in 
place and the highly qualified individuals who were selected. However, 
the law specifies that the REEO may contain as many as 30 individuals 
and--given the importance of the tasks at hand and the anticipated work 
load--we believe it would be wise to provide each division chief with 
at least one deputy.

Third: The Unfinished Agenda
    Mr. Chairman, my written testimony describes several areas that 
still need attention. Let me make six summary observations:

    1. The National Institute must become a fully functioning agency as 
        quickly as possible after October 1. Otherwise, the agency 
        could be at a significant disadvantage as its FY 2011 budgetary 
        priorities are reviewed and finalized by OMB.

    2. We are pleased that Dr. Roger Beachy will become Director of the 
        National Institute on October 5. We look forward to 
        collaborating with him and Dr. Shah as they finalize the 
        National Institute's structure and address other pressing 
        start-up issues.

    3. If Drs. Shah and Beachy move forward with what we understand 
        will be a ``Four Institutes'' model, all elements of the land-
        grant system--experiment stations, cooperative extension 
        services, academic programs, international programs, and 
        minority-serving institutions--must be well represented within 
        each of these Institutes. In addition, the structure must 
        clearly and unequivocally reflect the fact that extension and 
        education are key missions of the entire agency. And, let me 
        reiterate that a focus on families, youth, and communities is 
        vital for the future of rural America.

    4. The four new research and extension programs with mandatory 
        funding are accomplishing precisely what this Committee 
        intended and the mandatory funding must continue to be 
        protected.

    5. The Committee must make permanent the legislative language 
        included within recent Agriculture Appropriations bills 
        permitting universities to count their unrecovered indirect 
        costs against the matching requirements in certain competitive 
        programs, such as the Specialty Crops Research Initiative.

    6. The National Institute will only reach its full potential 
        through greatly enhanced funding. Therefore, we strongly urge 
        the Members of this Committee to continue working with Members 
        of the Appropriations Committee to ensure that all National 
        Institute programs are funded at their full, authorized levels.

    Mr. Chairman, let me thank you, Ranking Member Goodlatte, and your 
capable staff--Anne Simmons, Nona Darrell, and John Goldberg--for 
helping to create this unique opportunity to advance food and 
agricultural research, education, and extension.
    Creation of the National Institute represents a once-in-a-
generation opportunity to enhance and expand food and agricultural 
science and education within the United States and thereby improve 
human health, agricultural productivity, and rural vitality. We must 
all rise to the challenge and help the USDA leadership develop a well-
structured and adequately funded National Institute of Food and 
Agriculture.
    Thank you.

                              Attachment 2

An Approach To Developing the REE Roadmap for Research, Education and 
        Extension
    Section 7504 of the Food Conservation and Energy Act (FCEA) 
requires the development of a roadmap for agricultural research, 
education, and extension that (1) identifies current trends and 
constraints and (2) identifies major opportunities and gaps that no 
single entity within USDA would be able to address individually. The 
roadmap is to involve interested parties from the government and 
nongovernmental entities as well as the NAREEE Advisory Board; and is 
to incorporate roadmaps and other planning documents made available by 
other Federal entities, agencies or offices. Among other requirements, 
this roadmap is to be used to set the research, education and extension 
agenda of the Department of Agriculture as well as to describe 
recommended funding levels.
    The Under Secretary for REE is to initiate the development of the 
roadmap within 90 days of passage to the 2008 Food Conservation and 
Energy Act and implement and report on the roadmap within 1 year of 
commencing work. This is a daunting task given the complexity of the 
REE mission area and the agencies and external partners who work to 
meet various programmatic goals.
    Programs supported by taxpayers should be implemented for the 
ultimate benefit of those same taxpayers and for society in general. 
Consequently, setting an agenda for implementation of these programs 
appropriately involves recognition of the status of these 
constituencies and the environmental trends and opportunities that are 
likely to impact them in relationship to the mission of the Department 
and its partners.

Suggested Process
    The land-grant university community encourages the Under Secretary/
designee to appoint a Roadmap Steering Committee (RSC) to guide 
development of the Roadmap. While it is recognized that developing the 
Roadmap is the prerogative of the Department, it is expected that input 
and assistance will be sought from representatives of key partner 
groups, including land-grant university teaching, research and 
extension participants and that subsets of the RSC, along with 
assistance of partner representatives will staff these efforts. This 
approach and those detailed below will assure the development of a 
robust roadmap with broad support. Based on these expectations, the 
following procedures are suggested.

Review of Existing Plans
    The RSC will collect current strategic plans, roadmaps and similar 
documents for the components of the agricultural research, extension 
and education system, from both within the Department and from partner 
entities.
    These background documents will be reviewed to ascertain key 
trends, constraints and opportunities on which the documents are based. 
These may include, for example, changing demographics, significant 
social changes, advances in science and technology, and changes in 
information-seeking behavior of the Department's beneficiaries. The RSC 
will synthesize and summarize the key trends, constraints and 
opportunities identified in these background documents, list them and 
provide a brief description of each.
    These background documents reflect societal needs for research, 
Extension and education at the point in time the documents were 
created.
    Recognizing these needs, themes for a USDA-REE science roadmap that 
are inclusive of the core organizations of intramural and extramural 
research, education, extension and outreach education that includes 
science-based knowledge and technology transfer, and human capacity 
development are essential.

Gap Analysis
    The RSC will conduct a ``gap analysis'' to identify additional 
trends, constraints and opportunities that may not be included in the 
foundation documents. For example, the relationship of food and energy 
and the sustainability of both may not be adequately portrayed in the 
documents.
    In the interest of time, the ``gap analysis'' could be conducted as 
follows.

    a. The base document (synthesized list with brief descriptions) 
        could be provided on-line with a request that respondents 
        identify additional trends, also with brief descriptions of the 
        trends and how they relate to the mission of the Department and 
        its partners.

      i. Within the Department, responses could be solicited and 
            summarized by the various agencies, i.e., ARS, CSREES, ERS, 
            FS, NASS.

      ii. With the land-grant university partners, responses can be 
            solicited and summarized by the various Board on 
            Agriculture (BAA) Committees, i.e., ESCOP, ECOP, ICOP, 
            ACOP, and AHS. This process will ensure that all entities, 
            including the 1890s, 1994s and Non-Land-Grant Colleges of 
            Agriculture are fully engaged in this process.

      iii. With NAREEE Advisory Board, responses could be solicited and 
            summarized by the Board executive. The advisory board 
            provides some representation from nongovernmental entities, 
            as prescribed by statute.

    b. Since the NAREEE Advisory Board may not adequately represent 
        other key nongovernmental stakeholders, e.g., youth, families 
        and rural communities, BAA staff can coordinate the collection 
        of responses from the Board on Human Sciences and from 4-H 
        representatives.

    c. The RSC (or designated working group) will integrate the gap 
        analysis data collected with data gleaned from the foundation 
        documents. The result will be a draft white paper focused on 
        Trends, Constraints, Opportunities and Gaps related to 
        implementation of the CFEA of 2008 which will inform the 
        identification of REE goals.

Using themes to develop a draft Roadmap
    The elucidation of Trends, Constraints, Opportunities and Gaps will 
provide critical insights into cross cutting themes which should inform 
the USDA research, education and extension agenda. The RSC would 
develop a ``Conceptual Framework'' document which broadly, but 
succinctly, describes those themes identified from the above. The 
``Conceptual Framework'' would serve as the guiding document for the 
development of the REE Roadmap. These broad themes would guide the RSC 
in identification of underlying issues, and subsequently, writing 
groups which would more fully develop the background information on 
each issue including goals and objectives.
    Each theme would be led by a small goal development team (GDT), led 
by a member of the Roadmap Steering Committee, which would assume 
responsibility for the development of an overarching white paper or 
plan. Each theme/goal would be supported by a series of underlying 
issues as indicated above.
    Each underlying issue would be addressed through the development of 
a short 4-5 page white paper crafted by small writing team comprised of 
appropriate contributors. These teams would have broad representation 
so as to gain the best thinking and input. Writing teams would be 
comprised of representatives of USDA ARS, ERS, CSREES, university 
researchers, Extension, and academic programs, etc. Each writing team 
would obtain additional input on their particular topic as needed.
    The GDT reviews the issue papers looking for cross-cutting themes 
to create a draft goal statement(s) with underlying details. The 
resulting goal statements would be shared with the respective 
contributing writing teams for comments with a short turnaround.
    (Note: An initial set of potential themes with several underlying 
issues based on the Food, Conservation and Energy Act (FCEA) of 2008 
and existing planning documents is shown in Appendix A. For brevity 
only a few underlying themes have been provided.)

Drafting the Roadmap
    Since the goal statements will have been developed by separate 
development teams, it is essential that the RSC employ an editor who 
will synthesize a draft Roadmap from the themes/goals documents.
    Roadmap Steering Committee or REE obtains input on the draft 
Roadmap and modifies as appropriate.

Budget Implications
    The Food Conservation and Energy Act of 2008 also requires that the 
Roadmap ``(5) describes recommended funding levels for areas of 
agricultural research, education, and extension, including--

      (A) competitive programs;

      (B) capacity and infrastructure programs, with attention to the 
        future growth needs of--

        (i) small 1862 Institutions, 1890 Institutions, and 1994 
            Institutions;

        (ii) Hispanic-serving agricultural colleges and universities;

        (iii) NLGCA Institutions; and intramural programs at agencies 
            within the research, education, and economicsmission area''

    It is essential to maintain and grow capacity funding of the LGU 
system to respond to current and emerging needs. There is also need to 
enhance the capacity at 1890, 1994 and small 1862 institutions and to 
provide resources for the Non-Land-Grant Colleges of Agriculture to 
meet new and emerging needs. Finally, there is need to enhance the pool 
of resources available in the Agriculture and Food Research Initiative 
within the National Institute, with the proper balance between basic, 
applied and integrated programs.

              APPENDIX A: AN EXAMPLE OF THEMES AND ISSUES

    An initial set of themes can be drawn from existing plans, the 
Food, Conservation and Energy Act (FCEA) of 2008, and input from the 
gap analysis. The linkages between USDA research, education and 
extension and the Land-grant universities are essential for a 
successful science roadmap for USDA-REE.
    Example themes which are consistently present in relevant planning 
documents are displayed under the general heading of ``Putting Science 
to Work in a Time of Rapid Change.'' Several brief topics are provided 
under the eight overarching themes, each of which in this example would 
serve as the basis for short discussion white papers. These papers 
would inform the corresponding GDT in its development of a goal 
statement(s). It is expected that there would be additional issues 
under each of the broad themes.

Putting Science to Work in a Time of Rapid Change
    Agriculture in a Changing Global Landscape

  <bullet> Sustainable plant and animal systems

  <bullet> Competitiveness and profitability from farm to table

  <bullet> Changing global economy

  <bullet> Adjustments to global climate changes

    Safe and Abundant Food for America

  <bullet> Food safety

  <bullet> Food production

  <bullet> Communities and food systems

    Energy and Materials from America's Renewable Natural Resources

  <bullet> Initializing innovation on farms and in industry

  <bullet> Natural resources use and conservation

    Sustaining our Environment

  <bullet> Water, land and air for the future

  <bullet> Sustainable agricultural systems

    Enhancing Science Capacity and Adoption of Technology

  <bullet> Pre-college programs, K-12 STEM, enhancing undergraduate 
        education and research and graduate education

  <bullet> Addressing needs for future faculty and other professionals

  <bullet> Youth as leaders of change

  <bullet> Formal and informal education and human capacity development

  <bullet> Using information and communications technology to expand 
        learning and engagement

  <bullet> Using the education and extension systems to enhance 
        adoption of research-based technologies by users

    Attacking Worldwide Hunger

  <bullet> Enhancing the capacity of others

  <bullet> Securing America

    Individual, Family and Community Resilience

  <bullet> Security, safety and health

  <bullet> Entrepreneurship and small business development

  <bullet> Families that work in today's society

  <bullet> Human nutrition

    Strengthening International Connections

  <bullet> Fellowships and student training

  <bullet> Study abroad, scientific exchange programs

  <bullet> Building international capacity on campuses

               APPENDIX B: BACKGROUND INFORMATION SOURCES

Legislation
    Food, Conservation, and Energy Act of 2008.
USDA Agency Documents
    USDA Strategic Plan 2005-2010: http://www.ocfo.usda.gov/usdasp/
usdasp.htm.
    CSREES Strategic Plan 2007-2012: http://www.csrees.usda.gov/about/
offices/pdfs/csrees_stratic_plan.pdf.
    ERS Strategic Plan 2007-2012: http://www.ers.usda.gov/AboutERS/
ERSstrategicPlan2007_2012.pdf.
    ARS Strategic Plan 2006-2011: http://www.ars.usda.gov/SP2UserFiles/
Place/00000000/ARSStrategicPlan2006-2011.pdf.
    NASS Strategic Plan 2006-2011: http://www.nass.usda.gov/About_NASS/
Strategic_Plan/spnass2011.pdf.
    REE Energy Sciences Strategic Plan: http://www.ree.usda.gov/news/
bead/USDA_REE_strat_plan.pdf.
    Forest Service Strategic Plan 2007-2012: http://www.fs.fed.us/
publications/strategic/fs-sp-fy07-12.pdf.
Cooperative Extension
    Strategic Opportunities for Cooperative Extension (2008) https://
www.nasulgc.org/NetCommunity/Document.Doc?id=369.
    Cooperative Extension in 21st Century (2002) https://
www.nasulgc.org/NetCommunity/Document.Doc?id=152.
    eXtension Strategic Roadmap http://about.extension.org/mediawiki/
files/5/57/EXtension_Strategic_Roadmap_FINAL_07-28-08.pdf.
    eXtension executive summary: http://about.extension.org/mediawiki/
files/9/9b/EXtension_Strategic_Roadmap_Executive_Summary_FINAL_07-28-
08.pdf.
Experiment Stations
    ESCOP Science Roadmap Documents: http://escop.ncsu.edu/
Infobook.cfm?upperlevel=18.
    2002 Roadmap: http://escop.ncsu.edu/workroomattach/23_roadmap2.pdf.
    2006 Roadmap update: http://escop.ncsu.edu/workroomattach/
20_Roadmap%20Update_2006,%20read%20version.pdf.
1890 Agricultural Research Directors
    http://www.umes.edu/ARD/
Default.aspx?id=11228#Strategic_Five_Year_Goals.
Academic Programs
    Under development.
International Programs
    Under development.

                              Attachment 3

Comments & Recommendations
To: Colien Hefferan, Administrator, CSREES
From: D.C. Coston, Chair, the Farm Bill Implementation Assistance 
Committee of NASULGC's Board on Agriculture Assembly

Date: September 24, 2008

Cc: The Honorable Gale Buchanan, Under Secretary for Research, 
Education, and Economics

Re: Comments on Establishment of the Agriculture and Food Research 
Initiative (AFRI) CSREES-2008-0002

    The Cooperative State Research, Education, and Extension Service 
(CSREES) published a ``request for stakeholder input'' in the August 
29, 2008 Federal Register on the newly created Agriculture and Food 
Research Initiative (AFRI) authorized in Sec. 7406 of the Food, 
Conservation, and Energy Act of 2008 (P.L. 110-246). The following 
comments are presented by the Farm Bill Implementation Assistance 
Committee on behalf of the Board on Agriculture Assembly of the 
National Association of State Universities and Land-Grant Colleges 
(NASULGC). Like the Federal Register announcement, these comments and 
recommendations are preliminary in nature and our Committee will 
provide a more in-depth response when the formal AFRI rule-making takes 
place.
Comments & Recommendations:
    1. Growth in Funding. AFRI, like the National Research Initiative 
(NRI) which it replaced, is primarily a ``research'' initiative. (Prima 
facie evidence can be found in the name itself.) However, the law now 
permits the agency to also make competitive grant awards to stand-alone 
``extension'' and ``higher education'' projects. Significant increases 
in AFRI funding will, therefore, be necessary to support such new 
``stand-alone'' grants while continuing to fund fundamental and applied 
research projects and those that integrate research with extension and/
or higher education. We urge the Department to recognize this need via 
increased annual budget/appropriations requests.
    2. Integrated Grants. The basic authorization of appropriations for 
AFRI states that ``not less than 30 percent [of the funds] shall be 
made available for integrated research pursuant to section 406 of the 
Agricultural Research, Extension, and Education Reform Act of 1998.'' 
This language should not be interpreted to mean that the range of 
``integrated'' grants to be funded under AFRI be limited only to the 
specific areas currently funded under the section 406 authority. A 
broader interpretation comports with congressional intent.
    3. Eligible Institutions. Institutions eligible to receive AFRI 
grants include ``other Federal agencies.'' We suggest that this 
eligibility be used to encourage collaborative grants between these 
Federal agencies and eligible non-Federal entities. After all, these 
other Federal agencies already receive substantial appropriations of 
their own.
    4. Review Panels. Sec. 7406 states that ``a system of peer and 
merit review'' shall be used to ``determine the relevance and merit of 
[AFRI] proposals.'' We recommend that peer review panels should be 
constituted according to the nature of the proposals to be reviewed. 
For example, Cooperative Extension faculty should be recruited and 
strongly encouraged to serve on review panels for extension and 
integrated proposals.
    5. Priority-Setting Among Program Areas. Specific priority needs 
change over time, sometimes rapidly. Therefore, CSREES should continue 
to actively seek and carefully consider specific priorities identified 
by a diverse set of stakeholders. These should include sources from the 
private for-profit and nonprofit sectors, academia, state and Federal 
agencies, and consumers in general.
    6. Ten-Year Grants. It is well known that certain priority areas 
can only be adequately addressed by long-term support (e.g., plant and 
livestock breeding, ecosystem studies, rural entrepreneurship, public 
education, etc.). AFRI's new 10 year grant authority should be used 
whenever appropriate to fund these crucial activities. The opportunity 
for long-term (up to 10 year) grants should not be restricted to 
specific program areas, but should be made available throughout AFRI.
    7. Additional Priority Areas. Sec. 7406 refers to six major 
priority areas with between four and eight very specific sub-areas that 
should be addressed through this initiative. The six priority areas 
are: (1) plant health and production and plant products; (2) animal 
health and production and animal products; (3) food safety, nutrition, 
and health; (4) renewable energy, natural resources, and environment; 
(5) agriculture systems and technology; and (6) agriculture economics 
and rural communities. Unless prohibited by statue, we recommend the 
Department add an additional priority area that focuses on families, 
youth and communities. Additionally, as established priorities are 
implemented, traditional land-grant customers (producers, consumers, 
families, youth, and communities) need to be included in the scope of 
all priority areas.
    8. Recognition of the Partnership. It is important to recognize the 
local, state, and Federal partnership that undergirds the land-grant 
system. Additionally, effective land-grant programs that ultimately 
lead to positive behavioral change require a long-term research, 
education, and extension commitment that operates on a continuing and 
engaging basis. This principle should be considered in stand-alone and 
integrated RFAs and in criteria for evaluating proposals.
    9. Allocation of Funds. Sec. 7406 (b)(6) of P.L. 110-246 reads as 
follows:

      ``(6) Special considerations.--In making grants under this 
        subsection, the Secretary may assist in the development of 
        capabilities in the agricultural, food, and environmental 
        sciences by providing grants--

                  ``(A) to an institution to allow for the improvement 
                of the research, development, technology transfer, and 
                education capacity of the institution through the 
                acquisition of special research equipment and the 
                improvement of agricultural education and teaching, 
                except that the Secretary shall use not less than 25 
                percent of the funds made available for grants under 
                this subparagraph to provide fellowships to outstanding 
                pre- and postdoctoral students for research in the 
                agricultural sciences;
                  ``(B) to a single investigator or co-investigators 
                who are beginning research careers and do not have an 
                extensive research publication record, except that, to 
                be eligible for a grant under this subparagraph, an 
                individual shall be within 5 years of the beginning of 
                the initial career track position of the individual;
                  ``(C) to ensure that the faculty of small, mid-sized, 
                and minority-serving institutions who have not 
                previously been successful in obtaining competitive 
                grants under this subsection receive a portion of the 
                grants; and
                  ``(D) to improve research, extension, and education 
                capabilities in states (as defined in section 1404 of 
                the National Agricultural Research, Extension, and 
                Teaching Policy Act of 1977 (7 U.S.C. 3103)) in which 
                institutions have been less successful in receiving 
                funding under this subsection, based on a 3 year 
                rolling average of funding levels.''

    We recommend that the Department fulfill these requirements, create 
the mechanisms to do so, and allocate a pre-determined amount of 
funding. Additionally, these special considerations should be included 
within any RFA.
    10. Research Programs

  <bullet> In this transition year from the National Research 
        Initiative (NRI) to the new AFRI, now is not the time to reduce 
        the investment in fundamental research currently supported 
        within the NRI.

  <bullet> Although Sec. 7406 draws a distinction between 
        ``fundamental'' and ``applied'' research, these are two end-
        points along a continuum of activity and proposals that fall 
        elsewhere on that continuum (or otherwise link fundamental and 
        applied research) should be encouraged.

  <bullet> Priority areas that require sustained long-term activity 
        should be funded as 10 year grants.

  <bullet> RFA program areas should generally be broad enough in scope 
        to allow scientists maximum creativity and flexibility in 
        developing proposals.

    11. Extension Programs

  <bullet> Stand-alone extension activities should be encouraged and 
        funded under AFRI.

  <bullet> RFAs for extension activities should include review criteria 
        appropriate for extension.

  <bullet> Proposals that utilize modern information technologies to 
        share courseware and/or noncredit courses and curricula across 
        institutions should be encouraged.

  <bullet> RFA program areas should be broadly focused and emphasize 
        continuous interaction with customers and multi-state 
        programming.

  <bullet> In determining priority areas, we encourage consideration of 
        not only subject or disciplinary areas (e.g., plant and animal 
        systems), but also inclusion of strategic mechanisms that can 
        advance the development and application of science-based 
        information in all subject areas that may lead to improved 
        economic and social welfare of America's citizens. Emphasis 
        should be placed on supporting the dissemination and adoption 
        of technologies through effective, multi-state, collaborative 
        initiatives.

    12. Education Programs

  <bullet> Proposals that enhance professional workforce development in 
        areas of significant need as identified by the private sector 
        (e.g., fruit and vegetable production, plant breeding, and 
        rural sociology), should be encouraged.

  <bullet> Emphasis should be placed not only on activities that 
        enhance undergraduate and graduate enrollment in the priority 
        areas, but also on those that increase interest in these career 
        paths among K-12 students. A revitalization of summer 
        apprenticeships for rising junior and senior high school 
        students as well as opportunities for ``summer research 
        sabbaticals'' or ``summer science teacher workshops'' for high 
        school teachers should be instituted.

  <bullet> Proposals that utilize modern information technologies to 
        share courseware and/or courses and curricula across 
        institutions should be encouraged. Emphasis should be given to 
        the establishment of regional centers of academic excellence in 
        specific discipline areas (where the continued presence of 
        programmatic excellence in each and every institution can not 
        be justified) for the preparation of a new scientific cadre 
        needed to succeed the ``baby-boom'' generation that is reaching 
        retirement.

  <bullet> Proposals that utilize and broaden the applications of new 
        cognitive knowledge for the enhancement of learning should be 
        encouraged.

  <bullet> National Need Fellowship programs should be expanded and 
        integrated in a manner that would link multidisciplinary and 
        disciplinary education with discovery research.

    13. Integrated Programs

  <bullet> Integrated activities should form a foundation across all 
        AFRI program areas and a separate RFA for integrated activities 
        alone is not appropriate. Certain specific areas may be more 
        appropriate or more effectively addressed by integrated 
        activities and integrated proposals may be encouraged or 
        required in those areas, but the request for these proposals 
        should be incorporated into RFA(s) that also include non-
        integrated activities. The request for such proposals should be 
        included within a single RFA.

  <bullet> Integrated proposals must include a significant component of 
        two or more of the tripartite land-grant mission of learning, 
        discovery, and outreach. These components should not only be 
        coordinated and collaborative, but interdependent in addressing 
        issues and priorities.

  <bullet> Serious consideration should be given to the establishment 
        of an IGERT-like (Integrative Graduate Education and Research 
        Traineeship) program for a portion of the integrated programs.

  <bullet> The requirement for no less than 30 percent of the AFRI 
        funding in integrated programs will require additional 
        commitment to recruiting and training teaching and extension 
        personnel to participate in the AFRI. This will need to occur 
        quickly to meet the requirement.

  <bullet> Care should be taken that integrated programs are truly 
        integrated and that extension and teaching faculty are included 
        in the planning of such projects and not simply a ``tag on'' to 
        secure funding in this area.

                              Attachment 4

Comments & Recommendations
To: The Honorable Gale Buchanan, Under Secretary for Research, 
Education, and Economics
From: D.C. Coston, Chair, NASULGC's Farm Bill Implementation Assistance 
Committee

Date: October 27, 2008

Re: Research, Education, and Extension Office (REEO) and National 
Institute of Food and Agriculture (NIFA)

    Title VII of the 2008 Farm Bill (the Food, Conservation, and Energy 
Act of 2008, P.L. 110-246) contains, as you know, many provisions of 
concern to the land-grant university system. Two items of particular 
interest to the system are the Research, Education, and Extension 
Office (REEO) and the National Institute of Food and Agriculture 
(NIFA). Therefore, on behalf of the Board on Agriculture Assembly of 
the National Association of State Universities and Land-Grant Colleges 
(NASULGC), the Farm Bill Implementation Assistance Committee submits 
the following comments and recommendations on these two subjects.
Research, Education, and Extension Office
    REEO Division Chiefs. The Statement of Managers from the Committee 
of Conference requires that the Division Chiefs be selected by the 
Under Secretary to: (1) promote leadership and professional 
development; (2) enable personnel to interact with other agencies of 
the Department; and (3) allow for the rotation of Department personnel 
into the position of Division Chief. Each Division Chief is required to 
have conducted exemplary research, extension, or education in the field 
of agriculture or forestry and is required to have earned an advanced 
degree at an institution of higher education. Each Division Chief is 
limited to a 4 year term of service. The duties of each Division Chief 
include addressing the agricultural research, extension, and education 
needs and priorities within the Department and communicating with 
stakeholders, as well as the development of the roadmap.
    Recommendation: We are pleased that the Division Chief positions 
have been filled from within the USDA's science and education agencies 
and we look forward to working with these and other REEO personnel in 
the years ahead.
    Recommendation: Working as a team, the Under Secretary, Division 
Chiefs, and other REEO personnel must enhance programmatic integration 
and eliminate administrative duplication among NIFA, ARS, ERS, USFS, 
and NASS, and maximize allocation of staff resources among these 
agencies.
    Recommendation: The Division Chiefs should utilize the land-grant 
system's education and extension capability to deliver research results 
produced by all agencies within USDA to the Department's various 
stakeholders and customers.
    Recommendation: The Division Chiefs should assist the Under 
Secretary in identifying, prioritizing, and addressing continuing and 
emerging agricultural research, education, and extension needs, 
including funding requirements.
    Personnel. The Statement of Managers states the expectation that 
the REEO is ``to be staffed and funded from appropriations made 
available to the agencies within the REE mission area. There is concern 
that the REEO will evolve into a new layer of bureaucracy. To address 
this, the Managers have included language to limit the number of staff 
positions for the REEO to 30 full-time current positions.''
    Recommendation: Each REEO division should be staffed by personnel 
with professional experience in the division's respective mission 
area(s).
    Recommendation: In addition, personnel with families, youth, and 
community development professional experience should be represented 
throughout the REEO staff to ensure integration of these functions into 
the operations of the individual divisions and the Research, Education, 
and Economics mission area as a whole.
    Recommendation: Intergovernmental Personnel Act appointments are 
strongly encouraged to be represented within the REEO staff.
National Institute of Food and Agriculture
    Title VII requires a new National Institute of Food and Agriculture 
(NIFA) to be established by October 1, 2009. The Managers believe that 
NIFA ``will be commensurate in stature with other grant-making agencies 
across the Federal Government, such as the National Institutes of 
Health and the National Science Foundation. The Managers intend for 
NIFA to be an independent, scientific, policy-setting agency for the 
food and agricultural sciences, which will reinvigorate our nation's 
investment in agricultural research, extension, and education.'' To 
accomplish these objectives, ``all authorities under CSREES are 
transferred to NIFA, and all programs currently under CSREES will 
continue under NIFA . . . By restructuring CSREES, the Managers intend 
for NIFA to raise the profile of agricultural research, extension, and 
education.''
    NIFA Director. According to the Statement of Managers: ``NIFA will 
be headed by a Director, who is required to report to and consult with 
the Secretary on the research, extension, and education activities of 
NIFA. The Director will work with the Under Secretary for Research, 
Education, and Economics [REE] to ensure proper coordination and 
integration of all research programs that are within the responsibility 
of the Department. The Director of NIFA is required to be a 
distinguished scientist and will be appointed by the President . . . 
The Director is required to report to the Secretary or the designee of 
the Secretary and will serve a 6 year term, subject to reappointment 
for an additional 6 year term.''
    Recommendation: The NIFA Director should report directly to the 
Secretary.
    Recommendation: The NIFA Director should coordinate with the REE 
Under Secretary and implement, to the maximum degree possible, the 
Roadmap.
    Recommendation: The NIFA Director should ensure that NIFA 
coordinates and integrates with other USDA intramural agencies, the 
REEO, and stakeholders including the land-grant university system.
    NIFA Structure. The Statement of Managers provides ``the Director 
with discretion to organize NIFA into offices and functions to 
administer fundamental and applied research and extension and education 
programs. The NIFA Director is required to ensure an appropriate 
balance between fundamental and applied research programs, and is 
required to promote the use and growth of competitively awarded 
grants.''
    Recommendation: NIFA should be organized into two divisions: (1) a 
``Division of Research, Extension, and Education'' to administer 
capacity and infrastructure programs (as defined by legislation); and 
(2) a ``Division of Competitive Programs'' to administer competitive 
initiatives for research, education, and extension.
    Recommendation: In addition to the two divisions, the Director 
should create programmatic leadership offices to provide crosscutting 
programmatic planning and support functions between the two divisions, 
and ensure integration between capacity and infrastructure and 
competitive research, education, and extension programs. Examples of 
programmatic leadership offices that would integrate the functions and 
initiatives to be administered by each division include:

  <bullet> Families, Youth, and Community Development

  <bullet> Natural Resources and Environment

  <bullet> Plant Health and Production

  <bullet> Food Safety, Nutrition, and Health

  <bullet> Animal Health and Production

  <bullet> Agricultural Systems and Technology

  <bullet> Agricultural Economics

    Recommendation: The Director should designate a specific point of 
contact within each programmatic leadership office to ensure 
collaboration and coordination between each REEO office and the 
respective NIFA office. Research, Extension and Education functions 
should be represented in the points of contact and within each of the 
programmatic leadership offices.

                              Attachment 5

Date: May 26, 2009

To: Colien Hefferan, Administrator, CSREES
From: D.C. Coston, Chair, Farm Bill Committee

Re: Comments on on design and implementation of the 1890 Institution 
Capacity Building Grants Program

    The Farm Bill Implementation Assistance Committee was appointed by 
the Association of Public and Land-grant Universities' (formerly 
NASULGC) Board on Agriculture Assembly to work with USDA in 
implementation of provisions of the Food, Conservation, and Energy Act 
of 2008 (``2008 Farm Bill''). We wish to offer comments in response to 
the April 20, 2009, announcement in the Federal Register seeking 
feedback on design and implementation of the 1890 Institution Capacity 
Building Grants Program.
    The 1890 Institutions are important partners in the land-grant 
system in the United States. There is significant, and ever expanding, 
collaboration among land-grant universities. Additionally, the 1890 
institutions have constituencies which they are best positioned to 
serve through teaching, research, and extension programs.
    The Board on Agriculture Assembly was supportive of the needs of 
the 1890 universities during the process of development of the 2008 
Farm Bill. Several of the provisions in the Bill address enhancing 
capacity. A major component of this is the 1890 Capacity Building 
Grants Program. This collective support from throughout the land-grant 
community was based on the two facets outlined above: the 1890 
Universities need the capacity to work with their constituencies, and 
they also need the capacity to be partners with fellow land-grant 
universities and collaborators.
    A number of the 1890 universities are submitting comments in 
response to this call. Additionally, the Association of Research 
Directors (ARD), which is the collective 1890 agricultural research 
leadership, and the Association of Extension Administrators (AEA), 
which is an organization whose membership includes the Extension 
Administrators and Associate Administrators who provide leadership for 
the Extension programs at the 1890 Land-Grant Universities, have each 
submitted a response.
    The ARD comment was signed by Dr. Orlando Means, who chairs the ARD 
organization and the AEA comment was signed by Albert E. Essel, Chair, 
AEA. Thus, the commentary submitted by the ARD represents the 
collective thoughts of the impacted 1890 community.
    The Farm Bill Implementation Committee supports the recommendations 
in the ARD and AEA commentary (copies attached) and recommends that the 
Cooperative States Research, Education, and Extension Service carefully 
consider the counsel provided therein as the 1890 Capacity Building 
Grants Program is designed and implemented.

                               EXHIBIT 1

Association of Extension Administrators
May 18, 2009

Dr. Colien Hefferan,
Administrator,
Cooperative State Research, Education, and Extension Service, USDA,
Washington, D.C.

    Dear Dr. Hefferan:

    This letter is in response to the request for stakeholders' input 
for the 1890 Institution Capacity Building Grants Program (CBGP) that 
appeared in the Federal Register on April 16, 2009. The stakeholders' 
comments listed below are provided on behalf of the Association of 
Extension Administrators (AEA). The AEA is an organization whose 
membership includes the Extension Administrators and Associate 
Administrators who provide leadership for the Extension programs at the 
1890 Land-Grant Universities.
    The AEA is pleased that you are seeking input from stakeholders as 
you prepare the new rules and regulations for the CBGP. This is really 
important to the Extension Administrators because this is the first 
time that Extension has been included as a primary component of the 
CBGP. The addition of Extension to the program provides an opportunity 
for genuine collaboration and partnership between teaching, research, 
and Extension as capacity is built at the 1890 land-grant universities.
    In order to prepare these comments, input was solicited from the 
1890 Extension Administrators regarding implementing the changes in the 
CBGP, as stipulated in the Food, Conservation, and Energy Act of 2008. 
Based on their feedback, the information below is being submitted to 
USDA/CSREES for consideration in developing the new rules and 
regulations to implement the 1890 Capacity Building Grants Program.

    1. The new rules and regulations should ensure that Extension is a 
        viable component of the CBGP.

    2. If there is a limit to the number of proposals that can be 
        submitted from each university, the limit should allow for an 
        equal number of proposals from teaching, research, and 
        Extension. However, the decision regarding which proposals are 
        submitted for consideration for funding from a particular 
        university should be determined by the university. For example, 
        if the number of proposals that can be submitted is limited to 
        twelve, then each area (Extension, research, teaching) should 
        be eligible to submit four qualified proposals; however, the 
        final decision will be made by the university.

    3. Institutions should able to submit standalone research, 
        teaching, or Extension proposals, as well as joint proposals 
        that include two or all three of these areas.

    4. A percentage of the funds should be designated for research, 
        teaching, and extension proposals, as well as to fund joint 
        proposals. It is recommended that 30% of the funding should be 
        provided to each entity and 10% to fund joint proposals.

    5. If research, teaching, or extension failed to submit a 
        sufficient number of qualified proposals to utilize the 
        allocated funds, the remaining funds should be redistributed 
        equally among the areas with additional qualified proposals.

    6. Consideration should be given to funding planning grants and/or 
        mini-grants to address a particular capacity building issue or 
        problem.

    7. Peer reviewers should be identified from the 1890 universities 
        to assist with the review process. Persons will not be allowed 
        to review proposals that are submitted from their respective 
        institution. However, the CBGP rules and regulations should no 
        longer prohibit persons from the 1890 land-grant universities 
        from serving as a member of the peer review panel for this 
        program. Every effort should be made to ensure that reviewers 
        of Extension proposals have a working knowledge of Cooperative 
        Extension.

    8. Proposals submitted from teaching, research, and extension 
        should be reviewed separately and not as single group of 
        proposals. This will ensure that proposals that are similar in 
        nature are reviewed together. More importantly, this will avoid 
        trying to compare `oranges and apples' extension, research and 
        teaching proposals. For joint proposals, consideration should 
        be given to having reviewers from Extension, research, and 
        teaching to serve on the review panel.

    9. Consideration should be given to funding Extension proposals up 
        to $225,000.00 and joint proposals with research or teaching up 
        to $350,000.00.

    10. It should be optional for Extension professionals to include 
        Federal partners as collaborators on their proposals. There are 
        not many persons at the Federal level with extension 
        responsibilities or appointments and making Federal 
        collaborators a requirement could adversely impact proposals 
        submitted in Extension.

    Cooperative Extension is the outreach effort of the university 
whereby resources are utilized to address public needs through science-
based non-formal and non-credit educational programs. The 1890 programs 
reach diverse audiences with special focus on the needs of limited-
resource, hard to reach, and disadvantaged clientele. Cooperative 
Extension programs focus on the following broad areas:

  <bullet> 4-H Youth Development--cultivates important life skills in 
        youth that build character and assist them in making 
        appropriate life and career choices. At-risk youth participate 
        in school retention and enrichment programs inclusive of after 
        school and Saturday academy. Youth learn science, math, social 
        skills, and much more, through hands-on projects and 
        activities.

  <bullet> Agriculture--research and educational programs help 
        individuals learn new ways to produce income through 
        alternative enterprises, improved marketing strategies, and 
        management skills and help farmers and ranchers improve 
        productivity through resource management, controlling crop 
        pests, soil testing, livestock production practices, and 
        marketing. The 1890s are also conducting educational programs 
        in aquaculture, small ruminant production, small fruits and 
        vegetable production, and many other niche crops that are 
        important to small-scale producers.

  <bullet> Leadership Development--trains Extension professionals, 
        volunteers, and others to deliver programs in gardening, health 
        and safety, family and consumer issues, and 4-H youth 
        development and to serve in leadership roles in the community.

  <bullet> Natural Resources--teaches landowners and homeowners how to 
        use natural resources wisely and protect the environment with 
        educational programs in water quality, timber management, 
        composting, lawn waste management, and recycling.

  <bullet> Family and Consumer Sciences--helps families become 
        resilient and healthy by teaching nutrition, food preparation 
        skills, positive child care, parenting, family communication, 
        financial management, and health care strategies.

  <bullet> Community and Economic Development--helps local governments, 
        faith-based and nonprofit organizations to investigate and 
        create viable options for economic and community development, 
        such as improved job creation and retention, small and medium-
        sized business development, effective and coordinated emergency 
        response, solid waste disposal, tourism development, workforce 
        education, and land-use planning. Also help clients to develop 
        small family owned businesses.

    It is critical for the 1890 universities to increase their capacity 
in extension in the aforementioned areas. Additionally, the CBGP should 
support informal education to increase nutrition, health, financial, 
family, and agricultural literacy of adults and/or youth through 
training, workshops, institutes, and other methods. The program should 
allow extension professionals to develop sound extension methodology, 
curriculum, and innovations to the ``Demonstration Model'' to delivery 
of effective research based programs. The CBGP should provide support 
to develop faculty, staff, and volunteer capability to plan, implement, 
and evaluate programs based on identified needs that will engage 
audiences and enable informed decision making. The program should also 
support extension technology upgrades to improve program delivery.
    Thank you for the opportunity to provide these comments for your 
consideration. Should there be questions or if additional information 
is needed, please contact Dr. Albert Essel, Chair, Association of 
Extension Administrators and Associate Dean, Delaware State University 
at 302-857-6424 or by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d2b3b7a1a1b7be92b6b7a1a7fcb7b6a7fc">[email&#160;protected]</a>
            Prepared by,

Albert E. Essel, Chair, AEA and
Associate Dean for Extension.

                               EXHIBIT 2

    I am writing on behalf of the membership of the Association of 
Research Directors (ARD) in response to your call for stakeholder input 
on the development of new Rules and Regulations for the 1890 Capacity 
Building Grants Program (CBG). The ARD includes representation from 
both research and academic programs and is a professional embodiment of 
the food and agricultural sciences in its broadest sense on our 
campuses. The association has strong ties to its stakeholders, 
particularly to students, farmers (particularly limited resource 
farmers), Agri-industry, environmentalists and both rural and urban 
communities.
    As an 1890 family, the inclusion of Extension in Capacity Building 
Grant funding is recognized as extremely beneficial to the programs we 
provide for 1890 stakeholders and is in line with NIFA thrusts in 
priority funding for integrated programming. However, to set the stage 
for some of the recommendations that follow, the chart below will 
strikingly display how funding breakdowns from the past have greatly 
eroded effective funding for research when the decision was made to 
make equal allocations to both teaching and research as the CBG program 
was developing. Initially, research was primarily the area for which 
the Capacity Building Grants program funding was expected to be used to 
assist the 1890s in becoming more competitive and thus able to move to 
other competitive programs as a strengthened USDA partner. Without 
diminishing the value of teaching and extension activities on our 
campuses, it is important to recognize that research requires 
significantly higher investments in terms of equipment and specialized 
human capital before our institutions can be competitive. With so few 
research proposals being funded annually because of the funding 
distribution, only minimum research capacity building could be achieved 
through CBG funding. As is well known, 1890 institutions are clearly 
disadvantaged in terms of research resources as compared to 1862 
counterparts. Yet it is expected that the 1890s not only build quality 
research programs but strengthen them as science advances. Thus, the 
greatest need for capacity building on the 1890 campuses remains in 
research in the food and agricultural sciences. It would be from this 
growth that both academic and extension programs could advance. This 
should be factored strongly into consideration in terms of funding 
distribution within the CBG program. We therefore urge caution when 
attempting to apportion funding based on equal percentages to research, 
teaching and extension when, as seen below, such an apportionment has 
not worked well.
    CBG funding results as related to the funds being equally divided 
between research and teaching:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The data in the chart reveal that because of the stipulation that 
50% of the CBG funding be made available for teaching and 50% of the 
funds be allocated to research, substantial inroads to building 
capacity in research through this program have not been realized. The 
need has been in research as is evidenced by the number of proposals 
submitted for research ($300,000 maximum funding) versus substantially 
fewer submissions of teaching proposals ($200,000 maximum funding). 
This has lead to higher quality research proposals being recommended 
for funding but funds had been depleted before the cut-off was 
realized. Yet, teaching proposals were funded that were not as high in 
quality as those of research because more funding was available for 
teaching. Thus the ARD is recommending a funding strategy to fund the 
highest quality proposals as is the goal of competition, which will be 
delineated at the end of this communication.
    The following are additional requests:

    1. The ARD is requesting that the Federal Cooperator requirement 
        for CBG proposals be removed. The intent of such a requirement 
        had been to assist in establishing partnerships and support 
        from USDA agencies for 1890 initiatives. However, the 1890s 
        have evolved to establish partnerships not only with numerous 
        Federal partners, but with private and public entities as well. 
        Thus, such a requirement is no longer necessary since 
        partnerships will remain a very high priority in developing 
        initiatives within the food and agricultural sciences.

    2. The ARD requests the requirement of an endorsement letter in 
        submitted proposals from the 1890 Deans/Directors responsible 
        for oversight of 1890 Capacity Building Grant programs. The 
        food and agricultural sciences can be strengthened by 
        programming outside of researchers and educators housed within 
        these related departments, i.e., engineering, biology, 
        chemistry, social sciences, etc. However, the proposals should 
        be, according to the 1995 OIG Audit, submitted as ``linking 
        projects to institutions' long--term goals and strategic 
        plans.'' Additionally, CSREES listed as a goal of the CBG 
        program to ``stimulate initiatives/activities that will 
        strengthen the quality, depth, and breadth of an institution's 
        academic programs' infrastructure in the food and agricultural 
        sciences.'' Additionally CBG programs are included in the 
        required USDA Plan of Work for land-grant universities. Thus, 
        the letter of the dean/director will indicate knowledge of the 
        proposal being submitted from the campus and within the letter 
        of endorsement, the extent to which the initiative would 
        advance the strategic plans and Plan of Work in the food and 
        agricultural sciences. Without doing so, satellite initiatives 
        could be funded without building capacity because of a lack of 
        connectivity to the strategic plan, both short and long term in 
        the food and agricultural sciences. The endorsement letter 
        should be factored in as an evaluation criterion and assigned a 
        numeric score in the review process.

    3. In the revision of 7 CFR Ch. XXXIV (1-1-05 Edition) the ARD 
        requests the removal of references to cost-sharing and 
        matching, as well as the USDA agency cooperator requirement as 
        discussed in #1 above.

    4. Under definitions, a ``joint project proposal means a project 
        which will involve the applicant 1890 Institution and two or 
        more colleges, junior colleges, or other institutions, each of 
        which will assume a major role in the conduct of the proposed 
        project, and for which the applicant institution will transfer 
        at least \1/2\ of the awarded funds to the other institutions 
        participating in the project.'' The definition goes on to say 
        further that the ``other institutions participating in a joint 
        project proposal are not required to meet the definition of 
        `1890 Institution' as specified in this section, nor required 
        to meet the definition of college or university as specified in 
        the section.'' Thus, it should be made clear that the partner 
        need not be only an institution of higher education but could 
        also be a public or private entity, such as a corporation, a 
        small business, a community foundation, a public school system, 
        etc. Additionally, the ARD requests the removal of the amount 
        the partner must receive from the grant, but instead the grant 
        should pay the fair and allowable costs for services/
        initiatives rendered as a viable partner. However, it is agreed 
        that at least a 30% share of the funding could serve as a 
        minimum amount to be expected by a partner(s). Finally, the ARD 
        is adverse to requiring a minimum of three partners for a joint 
        project. Considering the challenges of coordinating 
        partnerships while realizing the tremendous benefits 
        partnerships confer, the ARD requests that a partnership be 
        construed as the minimum of two, not three partners, which 
        means the 1890 and another entity. However, it is realized that 
        proposals with multiple partners would be more readily fundable 
        than only two and thus it is advisable to have multiple 
        partners to increase the likelihood of funding.

    5. The ARD requests the removal of the requirement that all 
        teaching projects be mandated to offer academic credits. Very 
        commendable experiential learning opportunities are awarded 
        students that are not a part of a specific course for credit. 
        Some teaching initiatives are related to recruitment and 
        retention, some are for faculty development, etc. The rigors of 
        university approval for academic credit may well be out of the 
        confines of a CBG. Thus, these examples explain the request to 
        remove this requirement.

    6. Stipulations were placed on the 1890s as to how many proposals 
        could be approved for an investigator at an institution who 
        would serve as the principal investigator. Such things as time 
        and effort that do not exceed 100% are allowable by the Federal 
        Government. However, the universities should make their own 
        decisions in terms of the time and effort of its employees on 
        grants. Therefore as long as the investigator is not negligent 
        in submitting final reports for funded grants, CBG officials 
        should not dictate for the 1890 university who can submit 
        proposals from their campuses. These decisions should be made 
        by the campuses themselves.

    7. By policy, CSREES requires that peer review panels reflect the 
        diversity of stakeholders. In this regard, the 1890s have not 
        had the benefit of having those from the 1890s serve on CBG 
        panels. Years ago such an omission from the panels would have 
        been understandable as the 1890 programs were small and 
        conflict of interest would be commonplace. However, the 1890s 
        have grown tremendously and are as unfamiliar with cohorts at 
        their sister institutions today as the 1862s are with cohorts 
        at 1862 campuses. Yet as the 1862s are familiar with the 
        strengths, challenges and unique attributes of their sister 
        institutions, so are the 1890s. Therefore, putting in place the 
        guidelines for conflict of interest, the ARD requests that the 
        CBG peer panels are constituted with a minimum of 25% of 
        reviewers from the 1890 institutions.

    8. The last CBG funding cycle utilized the following as priority 
        areas:

      a. Human Health and Obesity

      b. Bio-energy Fuel

      c. Food Safety

      d. Water Quality

      e. Ag. Bio-Security (it is assumed that this area includes food 
            safety)

    The ARD concurs with the priorities listed above and will annually 
        submit for consideration other priority areas to be considered 
        after careful deliberation among the 1890 community. However, 
        for the next cycle, which would include Extension, the ARD 
        would suggest also including:

      f. Youth Development

      g. Family Financial Stability

      h. Parenting Education

    The above three areas were suggested as focus areas by Extension as 
        revealed in a previous meeting. The other areas Extension 
        recommended, Ag. Sustainability/Small Scale Agriculture, 
        Economic and Community Development would fit in the CSREES 
        previous category of General Food and Agriculture proposals.

    9. Besides the regular research and teaching proposals and the 
        joint/partnership proposals, CBG initiatives have also included 
        other special program areas. The ARD suggests the following 
        categories in addition to the traditional funding:

      a. Integrated proposals of two or more of the following--
            research, teaching, extension. This is an extremely 
            important new area that the ARD highly recommends.

      b. Consortium-type proposals--must be integrated, have a minimum 
            of five 1890s engaged, be funded at $1 million or more, can 
            be funded for 5 to 7 years. It is assumed that if 
            consortium-type proposals become a possibility, this will 
            be funded from a separate pool of CBG revenue, and not from 
            the funding pool currently available for CBG proposals.

      c. Planning grant proposals--to develop partnership or consortium 
            initiatives for either CBG or AFRI-type funding as well as 
            for USDA mandatory programs like the Specialty Crop 
            Research Initiative.

      d. Professional development proposals for administrators, 
            researchers, extension professionals and faculty (This 
            could also include the efforts of CBG national program 
            leaders to extend granting opportunities to new 
            investigators and faculty)

    10. During the last funding cycle, the 1890s were limited to 
        submitting no more than eight proposals per campus. It is 
        recommended that this limitation be extended to twelve 
        proposals per campus since Extension can now submit proposals 
        as well.

    11. Finally, as a result of the severe disadvantage research 
        funding has witnessed because of the 50:50 ratio of funding for 
        research and teaching as shown in the chart provided earlier, 
        the ARD proposes the following breakdown in funding:

    There be no breakdown in funds awarded according to teaching, 
research and extension other than that the three highest scored 
proposals in research, teaching and extension be funded. After the 
funding for these nine initiatives is taken off the top, the breakdown 
would be as follows:
    20% awarded to the priority areas designated in #8 with the highest 
rankings (teaching, research or extension), 30% be awarded to either 
multi-state, integrated or partnership proposals with the highest 
rankings (teaching, research or extension as the leading unit), 40% be 
awarded to general food and agricultural sciences proposals with the 
highest rankings (teaching, research or extension), 10% awarded for 
those proposals ranked highest in the categories of planning grants or 
professional development. On behalf of the ARD, I express utmost 
appreciation for the opportunity to provide stakeholder input. Please 
contact me, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1c717f71797d726f735c6b6a6f687d68796932797869">[email&#160;protected]</a>, if there is further information is 
warranted. I can also be reached by phone at 304-766-4291.
            Sincerely,

Orlando McMeans, Chair of ARD.

                              Attachment 6

Comments Regarding the Smith-Lever 3(d) Extension Integrated Pest 
        Management Program
Date: April 27, 2009

To: Colien Hefferan, Administrator, CSREES
Cc: Martin Draper, CSREES National Program Leader--Plant Pathology; 
Michael Fitzner, CSREES Plant Section Director
From: D.C. Coston, Chair, Farm Bill Committee

Re: Comments on Smith-Lever 3(d) Extension Integrated Pest Management 
Competitive Grants Program (CSREES-2008-0005)

    On behalf of the Policy Board of Directors, Board on Agriculture 
Assembly, Association of Public and Land-grant Universities, the Farm 
Bill Committee submits the following comments and recommendations 
pertaining to the Extension Integrated Pest Management Competitive 
Grants Program (new EIPM).
    Nationally, we have benefited tremendously by the dependable 
infrastructure of the IPM program and most recently the new EIPM 
Competitive Grants Program. Extension and Research faculty have 
generated significant impact with local constituents and have 
established many partnerships that leverage interest, expertise and 
financial support to make our programs more effective.
    We would like to see IPM program support grow with the goal of 
enhancing the current and emerging institutional efforts that make up 
the national network of coordinated Extension IPM programs. The Farm 
Bill Committee strongly believes that the future EIPM program must have 
a commitment to grow its budget if it is to adequately establish 
effective IPM Extension efforts across the country--efforts that 
currently exist and those that are emerging thanks to expanded 
eligibility under EIPM since 2009. We are offering comments that we 
believe enhance the national network and its ability to address the 
needs of a rapid response to pest problems which threaten the U.S. food 
supply, the environment, and human and animal health.
    We request the agency develop a long-term vision for how that 
Federal support can be increased. The current 3(d) IPM funds when 
distributed across more institutions via the new EIPM Competitive 
Grants model means it is difficult to maintain our efforts, while 
growing programs in institutions that have previously not received 
funding. We expect the Agency, USDA, and Administration to make a 
concerted effort at growing support for the EIPM budget to $20M 
annually by 2012.
    Therefore, as the national EIPM efforts move forward, we offer the 
following comments and recommendations in accordance with the Federal 
Register's notice for solicitation of stakeholder comments [March 23, 
2009 (Volume 74, Number 54)]:

  <bullet> We encourage the agency to establish a realistic maximum cap 
        for total allocation to a single institution. We feel that to 
        insure a national network, a reasonable maximum cap for total 
        award is necessary to support a basic and effective level of 
        IPM programming. That cap should be established annually, and 
        based on the Federal fiscal year base-budget allocation. Such a 
        maximum cap on the total award should be established through a 
        shared leadership structure (as described in a subsequent 
        recommendation below).

  <bullet> Institutions within states or regions that choose to submit 
        joint proposals for one state--or a regionwide IPM program 
        should be awarded accordingly, i.e., the cap suggested in the 
        item above should be for an institution. Furthermore, no more 
        than one proposal per eligible institution should be allowed 
        for submission to the EIPM Program. States with more than one 
        institution should be encouraged to collaborate and submit 
        proposals as a single state, perhaps through providing the 
        opportunity for some funding to support true and verifiable 
        joint efforts.

  <bullet> Coordination within an institution and among institutions is 
        vital to assure maximum impact of the IPM programs. The maximum 
        financial allocation for state coordination and collaboration 
        activities should be $100,000 per institution, with the 
        potential shared addition of $25,000 as noted in the item above 
        for cross-institutional coordination. This is essential to 
        guarantee a comprehensive IPM program that addresses a spectrum 
        of coordination and collaboration activities. This will also 
        provide a level of support for state coordination and will 
        ensure that each state will maintain and/or designate a State 
        IPM Coordinator at an appointment level adequate to coordinate 
        across disciplines, within their state, across states 
        (regionally) and with the national network of State IPM 
        Coordinators.

  <bullet> Proposals should focus on programs that have state-wide or 
        multi-state impact, rather than individual projects.

  <bullet> In proposal submissions, we recommend that each proposal be 
        required to address (1) coordination and collaboration; and (2) 
        at least two additional areas of emphasis. Each state or 
        institution should be allowed to determine the areas of 
        emphasis, based on their ongoing interactions with stakeholders 
        without limitation by a list published in the RFA.

  <bullet> We recommend the elimination of all other maximum cap 
        allocations for areas of emphasis within state proposals. This 
        would allow for great flexibility in the way a state determines 
        pest management needs and how to address those of greatest 
        importance.

  <bullet> Federal extension funding that is currently directed to the 
        Regional IPM Centers (known as RIPM) should remain in place and 
        not be combined with EIPM funding and administrative structure 
        for the following year. However, the Policy Board recommends an 
        orderly transition of these funds into EIPM-CS over time. Such 
        a move would improve the program's ability to support state 
        comprehensive IPM programming.

  <bullet> We recommend that long-term grant award periods be utilized. 
        While FFY09 awards were made for 1 year grants, in subsequent 
        years continuation grants with longer duration (up to 4 years) 
        should be awarded. Utilizing longer agreements will offer more 
        stability to partnerships and ability to leverage IPM 
        programming and interests with stakeholders. The agency has the 
        authority to make continuation grants. That authority should be 
        utilized.

  <bullet> Consideration should be given to an earlier release of the 
        Request for Assistance (RFA) to better coincide with the 
        Federal Fiscal/Budget Year. We encourage a summer release of 
        the next RFA with a due date prior to October 1st.

  <bullet> As the competitive grant model is refined, we recommend the 
        criteria for awards also include:

    <ctr-circle> Demonstrated impact in IPM programming

    <ctr-circle> Research-based information, data and extension 
            education methods

    <ctr-circle> Institutional capacity that insures future program 
            impact

    <ctr-circle> Coordination with external partners

    <ctr-circle> Leveraging funds and expertise

    <ctr-circle> Relative significance to the Institution's mission and 
            scope of audiences served

    <ctr-circle> Extent to which the proposal addresses a comprehensive 
            IPM ``program'' rather than isolated projects.

  <bullet> Having members of the EIPM Proposal Review Panel who 
        understand how projects are supported and administered with 
        statewide and multi-state collaborative responses is essential. 
        Therefore, we recommend current approaches to review panel 
        membership be expanded to include: (1) at least one state 
        program leader for Agriculture and Natural Resources; (2) a 
        regional IPM Center Director; and (3) one or more state IPM 
        Coordinator(s). We respect considerations for potential 
        conflicts-of-interest; however, there is always room for 
        improvement when evaluating the efficacy, efficiency and 
        effectiveness of state proposals by those who are in a position 
        to best understand outreach and Extension program delivery. 
        Across the nation, there are a number of people who have held 
        recently held such roles, who are now in other assignments or 
        are retired. Utilizing their skills might be one approach to 
        avoid the conflict of interest issue.

  <bullet> We strongly encourage the Agency to expand efforts in shared 
        program leadership with the state network of IPM Coordinators 
        and the Federal IPM Coordinating Committee. We call upon the 
        Agency and national staff to earnestly explore ways to be more 
        inclusive in decision-making via participatory processes such 
        as the Committee for Shared Leadership--Water Quality and/or 
        SARE. To be a responsive program that is coordinated nationally 
        and delivered locally, greater utilization of the state-network 
        of IPM Coordinators is strongly encouraged. This is especially 
        important as we address emerging and immediate pest issues in 
        ways that require multi-state, regional and nationally 
        coordinated responses to problems that do NOT fit within 
        traditional program boundaries such as political boundaries or 
        small-scale isolated geography.

    Again, we offer a sincere thank you for the opportunity to provide 
input on behalf of the nation's Land-Grant Colleges and Universities 
through the role of the Policy Board of Directors and its Farm Bill 
Committee. The recommendations above, when combined with a vision for 
growing the overall budget for EIPM will make our efforts strong, more 
effective and more responsive to ag producers.

                              Attachment 7

Comments & Recommendations
To: Colien Hefferan, Administrator, CSREES
From: D.C. Coston, Chair, Farm Bill Implementation Assistance Committee

Date: October 28, 2008

Cc: The Honorable Gale Buchanan, Under Secretary for Research, 
Education, and Economics

Re: Comments on Establishment Specialty Crop Research Initiative (SCRI) 
Information Number (RIN) number 0524-AA28

    The Board on Agriculture Assembly of the National Association of 
State Universities and Land-Grant Colleges (NASULGC) appreciates the 
opportunity to comment on the proposed rule to implement Section 7311 
of the Food, Conservation and Energy Act of 2008 (Public Law 110-246, 
also known as the 2008 Farm Bill), the Specialty Crop Research 
Initiative.
    The land-grant university system strongly supported the initiation 
of the specialty crop grant program in recognition of the increasing 
importance of specialty crop producers in the agricultural economy, as 
well as the unique needs of this sector in comparison to traditional 
row crops. However, we are particularly troubled by section 3430.205 of 
the interim final rule which limits the indirect costs claimed to not 
exceed 22%.
    When Congress authorized this program, it was explicit in requiring 
a dollar-for-dollar match. What Congress did not do was to limit 
unrecovered indirect costs that could be counted towards an 
institution's match. CSREES' application of the 1462(a) of the National 
Agricultural Research, Extension, and Teaching Policy Act of 1977 is 
not specifically authorized or discussed in Section 7311. By preventing 
the use of unrecovered indirect costs as matching, CSREES is in direct 
conflict with OMB Circular A-110 which specifically allows unrecovered 
indirect costs to be included to meet Federal grant cost-sharing or 
matching requirements. Since, as stated, that application of the 22% 
limit is neither specifically authorized nor discussed by the Committee 
report there is no indication of Congressional intent to further apply 
such a limit.
    To further restrict these funds by applying burdensome and 
unauthorized limits on indirect costs threatens to restrict the 
availability of these funds to many highly qualified universities and 
researchers. In a recent survey of land-grant institutions, with 57 
Experiment Station Directors responding, an overwhelming majority 
indicated that the unrecovered indirect cost restriction on matching 
will negatively impact their ability to participate in the SCRI.
    When Congress authorized this program, it was explicit in requiring 
a dollar-for-dollar match to ensure that Federal dollars are leveraged 
to their maximum to benefit the specialty crop industry. However, it 
was not the intent of Congress to restrict the ability of institutions 
to submit applications to the program. There are many institutions that 
are having great difficulty in meeting the matching requirements. This 
will become increasingly important as the Biomass R&D and Organic Ag 
programs become available.

    The Chairman. Thank you, Dr. Coston.
    Mr. Layton?

STATEMENT OF JOSEPH H. LAYTON, Jr., MEMBER, BOARD OF DIRECTORS, 
                 AMERICAN SOYBEAN ASSOCIATION;
           PRESIDENT, NATIONAL COALITION FOR FOOD AND
AGRICULTURAL RESEARCH; SOYBEAN, CORN, AND GRAPE FARMER, VIENNA, 
                 MD; ON BEHALF OF USDA NATIONAL
   AGRICULTURAL RESEARCH, EXTENSION, EDUCATION AND ECONOMICS 
                    (NAREEE) ADVISORY BOARD

    Mr. Layton. Thank you, Mr. Chairman and Members of the 
Committee. I am Joe Layton. I have submitted copies of my full 
written testimony. I hope you each have time to read it. And I 
request that it be included in the hearing record.
    The Chairman. Without objection.
    Mr. Layton. I am a farmer from across the Bay, on 
Maryland's Eastern Shore, a constituent of Congressman 
Kratovil, as he had said. My family and I operate about an 
1,800 acre farm, producing corn, soybeans, wheat, and timber. 
Three years ago, we started a vineyard and are now building a 
winery. We have been pressing grapes for the last week, and our 
first wines are now fermenting, which is very exciting for me. 
But I am here today to talk about research.
    I have been, for the last 6\1/2\ years, representing 
Maryland farmers on the board of the American Soybean 
Association. All of that time, I have represented the American 
Soybean Association on the board of National C-FAR, which is 
National Coalition of Food and Agriculture, and presently serve 
as President. So the two groups I am speaking for today are the 
American Soybean Association, which represents 22,000 soybean 
producers, and National C-FAR, which is a broad-based customer-
led coalition.
    Because of my activities with these two groups, I have been 
also appointed, 3 years ago, to the National Agricultural 
Research, Extension, Education, and Economics Advisory Board, 
which reports to the Secretary and to Congress on research 
issues. I guess what I want to say is that, over the last 6 
years, I have spent a good bit of time, for a farmer, looking 
at federally funded agriculture research.
    My written testimony makes three general conclusions. 
First, the research title is a vital means to help achieve 
important national priorities and respond to current needs of 
research customers. Second, new leadership at USDA is moving 
forward capably to implement the research title to make REE 
programs more effective and compete for the increased funding 
needed. And third, that increased funding is critical to 
achieving the intended objectives of the research title for 
both the extramural and intramural programs. It is important to 
include investments in both fundamental and applied research.
    Over the years, I have concluded that we in agriculture 
have not done a very good job in supporting research, but this 
is changing. Both National C-FAR and American Soybean 
Association are committed to working with a broad base of 
stakeholders to increase research funding.
    NAREEE, in April, along with the Farm Foundation, held a 
summit for stakeholders on agriculture research and 
productivity for the future, to look at where we are and where 
we need to go. On Monday of this week, I attended a meeting 
with many of the producer groups where we got together to 
discuss how best to move forward in supporting research. I am 
very optimistic that we, the customers of research, will do a 
better job of supporting research than we have in past years.
    The farm bill contained two provisions that I believe will 
have long-lasting positive impacts on research: the 
establishment of the National Institute of Food and Agriculture 
and the establishment of the position of Chief Scientist.
    Both National C-FAR and American Soybean Association are 
very excited about the National Institute. We have supported 
the establishment, and we believe the National Institute will 
provide the structure to facilitate the growth in quantity and 
quality of food and agriculture research needed to meet the 
challenges of the future. And we are also very excited about 
the recent appointment of Dr. Roger Beachy to serve as its 
first director.
    We are equally excited to have Dr. Shah, with his 
leadership and vision, to serve as Under Secretary and Chief 
Scientist, a position that seems very appropriate to lead an 
organization that we need to be. And we expect to produce the 
best science in the world on the subject of food and 
agriculture.
    Personally, I believe we are now in a period where we have 
an opportunity to improve funding for research. I am excited to 
have the leadership of Dr. Shah and Dr. Beachy to lead REE. We 
have an Administration which has said it supports an investment 
in science. And we, the customers, are motivated and, I 
believe, will do a better job of supporting research.
    On behalf of NAREEE, National C-FAR, and American Soybean 
Association, I appreciate the opportunity to make these 
comments, and I personally thank you for allowing me to address 
you.
    And I also invite you, if you have the opportunity to cross 
the Bay after May of 2010, which is when we plan to open, to 
travel a mile or so off Route 50 and visit Layton's Chance 
Vineyard and Winery. I don't know whether a little 
advertisement is appropriate, but----
    The Chairman. We would like to take you up on that, Mr. 
Layton.
    Have you concluded, Mr. Layton?
    Mr. Layton. Yes, I have.
    [The prepared statement of Mr. Layton follows:]

     Prepared Statement of Joseph H. Layton, Jr., Member, Board of 
Directors, American Soybean Association; President, National Coalition 
 for Food and Agricultural Research; Soybean, Corn, and Grape Farmer, 
     Vienna, MD; on behalf of USDA National Agricultural Research, 
                               Extension,
            Education and Economics (NAREEE) Advisory Board

    Mr. Chairman and Members of the Subcommittee, my name is Joseph H. 
Layton, Jr., and I am a soybean, corn and grape producer on Maryland's 
Eastern Shore. Thank you for scheduling this timely and important 
oversight hearing on implementation of the 2008 Farm Bill Research 
Title.
    I am a Member of the Board of Directors of the American Soybean 
Association (ASA). I represent ASA on the Board of Directors of the 
National Coalition for Food and Agricultural Research (National C-FAR) 
and serve as President of National C-FAR. I have also been privileged 
to serve as a member of the U.S. Department of Agriculture's (USDA) 
National Agricultural Research, Extension, Education and Economics 
(NAREEE) Advisory Board, representing the perspective of major 
commodity groups. I am pleased to testify today as a farmer and on 
behalf of the NAREEE Advisory Board, National C-FAR and the American 
Soybean Association.
    The NAREEE Advisory Board was established by Congress, and I assume 
this Subcommittee is familiar with its structure and intent. The NAREEE 
Advisory Board provides advice to the Secretary of Agriculture, land-
grant colleges and universities, and to the Congress on top priorities 
and policies for food and agricultural research, education, extension 
and economics. The Board is made up of 25 members, each of which 
represents a specific category of U.S. agricultural stakeholders.
    The American Soybean Association represents 22,000 producer members 
on national issues of importance to all U.S. soybean farmers.
    National C-FAR is a customer-led coalition that brings food, 
agriculture, nutrition, conservation and natural resource stakeholders 
together with the food and agriculture research and extension 
community, serving as a forum and a unified voice in support of 
sustaining and increasing public investment at the national level in 
food and agricultural research, extension and education. More 
information about National C-FAR is available at http://www.ncfar.org.
    You may have noticed that I introduced myself as a grape producer--
a rather unusual description of a Maryland farming operation. During my 
entire farming career I have been a row-crop farmer, with a soybean-
corn rotation, and believe I have been reasonably successful. When my 
son and his family came back to partner with my wife Laura and me in 
the farming operation a few years ago, it became obvious we needed to 
consider options to generate additional farm income to support both 
families. After careful research, we decided to add a vineyard and 
winery, ``Layton's Chance.'' Even as we have been harvesting our grain, 
we are now in the middle of our first grape harvest, and are in the 
middle of our first crush for our winery.
    This is indeed an exciting and admittedly nervous time for me and 
our family. The challenges our farm family are experiencing have 
brought into fresh focus the need for investments in research, 
education and extension (RE&E) so that we can have the sound science 
upon which to base our decisions and our operations, today and into the 
future.
    I am not a researcher, though I do some experimenting in my farming 
operations. However, I do appreciate the vital role that researchers 
play in our society; and I know that I can do what I do better because 
of what they produce. Modern agriculture is a science-based business. I 
need what research and extension can provide in my soybean and corn 
operations. We also need information researchers and extension agents 
can provide for our new vineyard and winery operation.
    We are not investing enough in RE&E to enable researchers to 
provide the answers I need. That is a major reason I invest some of my 
time in ASA, National C-FAR and the USDA NAREEE Advisory Board--to 
provide input as a stakeholder and to urge increased investment in food 
and agricultural RE&E.
    My testimony in brief--

  <bullet> The Research Title is a vital means to help achieve 
        important national priorities and respond to the current and 
        future needs of ``customers''--farmers, consumers, and 
        Congress.

  <bullet> New leadership at USDA is moving forward capably to 
        implement the Research Title, make RE&E programs more effective 
        and compete for the increased funding needed.

  <bullet> Increased funding is critical to achieving the intended 
        objectives of the historically under-funded Research Title, for 
        both extramural and intramural programs. It is important to 
        include investments in both fundamental and applied research.

NAREEE Advisory Board Key to Providing Stakeholder Input
    The Research Title of the 2008 Farm Bill restructured the NAREEE 
Advisory Board by eliminating six member categories including a member 
representing each of the following: a national animal commodity 
organization; a national crop commodity organization; the portion of 
the scientific community not closely associated with agriculture; an 
agency within the Department of Agriculture that lacks research 
capabilities; a research agency of the Federal Government (other than 
the Department of Agriculture); and a national organization directly 
concerned with agricultural research, education, and extension. The 
remaining 25 members adequately represent a wide cross-section of 
agriculture from producers to industry leaders to land-grant 
institution academicians. The smaller number of NAREEE Advisory Board 
members allows for more effective engagement in discussion and 
formulation of recommendations for the Secretary of Agriculture.
    The NAREEE Advisory Board has reviewed funding issues in a number 
of areas and has consistently commented that USDA research programs are 
under-funded.

Farm Bill Research Title Has Many ``Customers''
    The Research Title of the 2008 Farm Bill represents the nation's 
signature Federal investment in the future of the food and agricultural 
sector. In fact, the success of every other title in the farm bill and 
those who are charged with carrying out their respective missions is 
arguably dependent in significant part on scientific outcomes and tools 
generated by programs authorized through the Research Title, and then 
adequately funded by Congress. The Research Title is not an end in 
itself--rather it is a vital means to help achieve many national 
priorities. Public investment in food and agricultural RE&E today and 
in the future must simultaneously satisfy needs for food quality and 
quantity, resource preservation, producer profitability, and food 
safety and security.
    As both an agricultural producer and as a consumer of the many 
products provided by our food and agricultural system, I am a 
``customer'' of the publicly funded food and agricultural RE&E system. 
In reality, everyone is a ``customer'' of our food and agricultural 
RE&E system.
    As an agricultural producer and ``customer'' of the food and 
agricultural RE&E system, I need the scientific outcomes and tools that 
an adequately funded Research Title can provide to help me do my job. 
The same holds true for a myriad of other ``customers''--such as my 
fellow farmers and ranchers across the nation; the agricultural input 
industry; food processors; professionals in the fields of nutrition, 
diet and health; natural resources and environment; rural communities; 
and ultimately consumers of food and natural fiber around the world. 
Furthermore, this Subcommittee and other Members of Congress and policy 
makers at all levels of government are important ``customers'' of RE&E 
made possible through the Research Title.
    Tools provided through RE&E are needed to help achieve safer, more 
nutritious, convenient and affordable foods delivered to sustain a well 
nourished, healthy population; more efficient and environmentally 
friendly food, fiber and forest production; improved water quality, 
land conservation, wildlife and other environmental conditions; less 
dependence on non-renewable sources of energy; expanded global markets 
and improved balance of trade; and more jobs and sustainable rural 
economic development. Societal demands and expectations placed upon the 
food and agricultural system are ever-changing and growing. Examples of 
current and future needs include addressing bio-security; food-linked 
health costs; environment and conservation; farm income and rural 
revitalization; biofuels and climate change; the increasing world 
demand for food and fiber and improved diets; and needed advances in 
biotechnology and genetic resources research. A United Nations report 
projects that we will need to double food production to feed nine 
billion people by 2050, and that 70 percent of the increase must come 
through research developing new technologies and increased 
productivity.

Implementation of the Research Title--USDA Roadmap
    National C-FAR and ASA are excited about the leadership and vision 
that Under Secretary Shah brings to USDA and its RE&E mission. We also 
support the appointment of Dr. Roger Beachy to serve as the first 
Director of NIFA. We believe this leadership team has the stature and 
capability to implement the intended reforms in the Research Title, to 
elevate USDA to a premiere, science-based agency, and to compete more 
effectively for the funding needed, both within the Administration and 
before the Congress. Our organizations stand ready to work with them to 
achieve shared goals.
    Effective tomorrow, October 1, the new National Institute for Food 
and Agriculture (NIFA) will officially exist. ASA and National C-FAR 
both strongly supported the creation of this Institute in the 2008 Farm 
Bill. I appreciate that Under Secretary Shah emphasized in his recent 
meeting with National C-FAR Board representatives that priorities for 
the Institute--nutrition and human health, food safety, bioenergy, 
climate change and international food security--are on top of a 
continuing core of crop and livestock production ag research. He also 
indicated that while USDA's near-term focus is appropriately on making 
the substantive progress needed to implement NIFA, a review of 
intramural programs--ARS, ERS, the Forest Service and to a lesser 
extent NASS--is expected to begin near the end of this year.
    National C-FAR and ASA will review and comment on the revised NIFA 
roadmap and other organizational efforts and look forward to a 
continuing dialog with USDA on both the extramural and intramural 
programs.
    A summary of National C-FAR's May comments on the Research, 
Education, and Extension Office (REEO) Roadmap is attached.
Implementation of the Research Title--Funding Critical
    At the risk of oversimplification, Federal funding is the fuel for 
USDA's RE&E engine and determines how effectively the roadmap will be 
implemented. The experience in the stimulus bill earlier this year, in 
which efforts to include funding for food and agricultural research 
failed completely while major increases for other science agencies were 
included, served as a wake-up call for all of us in the food and 
agricultural sector. We all need to do a much better job of 
articulating the need and competing for funds in the future.
    By any measure, Federal funding for food and agricultural RE&E has 
failed to keep pace with identified priority needs. Public and private 
investments in U.S. agricultural research and practical application of 
results have paid huge dividends to the United States and the world, 
especially in the latter part of the 20th century. However, the 
unparalleled success story in the food and agricultural system is a 
product in large part of past investments in food and agricultural 
research and extension. Federal funding for food and agricultural RE&E 
has been essentially flat for over 20 years despite much greater 
demonstrated needs, and has reportedly declined by about 25 percent in 
real terms since 2003. At the same time support for other Federal 
research has increased substantially. Public funding of agricultural 
research in the rest of the world during the same time period has 
outpaced investments in the United States.
    Federal funding for food and agricultural RE&E represents a top 
national priority and a necessary long-term national commitment. Our 
support for increased funding includes both the intramural and 
extramural programs at USDA. I agree with President Obama's statement 
that, ``Science is more essential for our prosperity, our security, our 
health, our environment, and our quality of life than it has ever 
been.'' President Obama recently committed to a major increase in 
investments in research, declaring at the annual meeting of the 
National Academy of Sciences that the United States will ``devote more 
than three percent of our GDP to research and development.'' I believe 
that major increases in funding for food and agricultural RE&E must be 
a part of this vision for our nation's future.
    Personally, I believe we are in a period of opportunity where the 
chance to improve research funding exists--IF all of us in agriculture 
can come together. Already, I have seen production agriculture--crops 
and livestock as well as specialty crops--coming together with the 
unified message that we believe a rising tide lifts all boats.
    Therefore, one agenda we have all stood behind is for Congress to 
fully fund USDA's flagship competitive program, the Agricultural and 
Food Research Initiative (AFRI). The 2008 Farm Bill provided an 
authorized level of $700 million annually. In 2009, appropriations were 
just over $200 million. With the goal of reaching the fully authorized 
level of $700 million annually as soon as practicable, dozens of groups 
including the land-grant universities, National C-FAR and ASA came 
together to support FY 2010 funding of $300 million. We eagerly await 
the results of the Agriculture Appropriations conference to learn if 
Congress will fulfill this commitment.
    Such investments are demonstrated to yield tremendous returns. A 
USDA Economic Research Service (ERS) September 2007 Economic Brief 
titled, ``Economic Returns of Public Agricultural Research,'' shows the 
average rate of return to public investment in agricultural research is 
nearly 50 percent.
    If USDA's RE&E mission continues to be starved for funds, any 
roadmap is destined to fall short of not only its potential but of 
leading to the outcomes this nation needs. The support by National C-
FAR and ASA for NIFA, AFRI and other reforms in USDA's RE&E mission in 
the recently enacted farm bill was principally motivated by the hope 
that such reforms would help result in increased funding. It is 
incumbent on USDA, stakeholders in the RE&E and ``customer'' 
communities, and the Congress to find the will and a way to increase 
investments in this vital mission area and turn our shared hope into an 
operational reality.
    This quest starts with better articulating a compelling case to 
fund unmet needs. To help prepare the best case possible for enhanced 
funding, National C-FAR has urged USDA to make it a priority to 
identify current and future challenges to the food and agricultural 
sector and the RE&E needs and resource requirements to respond to those 
challenges in the coming years in a timely and effective manner and to 
articulate those needs eloquently and effectively. USDA and the 
Administration should base annual budget requests for its RE&E mission 
on such a needs assessment.
    We appreciate the longstanding support this Subcommittee, the full 
Committee and its Members have demonstrated over the years to authorize 
and oversee implementation of a sound Research Title that can compete 
more effectively in the funding process, both within the Administration 
and in the Congress.
    In closing, National C-FAR, the American Soybean Association and 
others in the stakeholder community bear a commensurate responsibility 
in implementing the new programs under the Research Title, in 
articulating needs, and in making the case for increased funding. 
National C-FAR looks forward to working as a customer-led coalition 
with Under Secretary Shah, the new Director of NIFA, the Congress, and 
other stakeholders to help ensure that the USDA RE&E mission and 
implementing roadmap move forward as envisioned and receive the 
resources and funding needed to achieve scientific outcomes that are 
necessary for the food and agricultural sector to address multiple 
demands, challenges and expectations. I appreciate the opportunity to 
share my views.

                               Attachment

National C-FAR Comments on USDA's REEO (Research, Education, and 
        Extension Office) Roadmap
    Earlier this year, National C-FAR responded to a series of 
questions posed by USDA in a notice of public comment regarding what 
should be included in a NIFA roadmap. Selected questions and National 
C-FAR's responses that may be of interest to this Subcommittee follow:
    What types of current and future critical issues (including those 
affecting citizens, communities and natural resources) does agriculture 
face that no USDA entity could address individually? Response--

  <bullet> The challenge of maintaining and increasing the productivity 
        of agriculture needed to provide the food, fuel and other 
        products needed by the world's growing population will require 
        not only the participation of all USDA resources but also 
        extensive cooperation with the other national science 
        organizations.

  <bullet> Almost any issue requiring food and agricultural RE&E 
        benefits from the involvement of more than one USDA entity, and 
        indeed entities outside USDA.

  <bullet> We live in a complex world, and complex interrelationships 
        and consequences are better addressed through ``multi-
        disciplinary'' scrutiny--in terms of implementing agencies, 
        RE&E mission areas, scientific disciplines, and stakeholders. 
        This is particularly true at the onset, when issues are first 
        emerging. Otherwise there is a significant risk that resources 
        will not be targeted effectively or efficiently, with 
        unintended consequences resulting that result in lost time and 
        require additional investments to address.

  <bullet> 2008 Farm Bill reforms to the USDA RE&E mission area--
        including creation of the Under Secretary-Chief Scientist, NIFA 
        and AFRI--were motivated in part to encourage increased 
        coordination and efficiency. USDA should work to ensure that 
        RE&E programs, including the `centers' in NIFA don't become 
        compartmentalized, or `silos.'

  <bullet> Coordination and cross-pollination are important to ensure 
        unintended consequences are minimized and that RE&E outcomes 
        address all the issues that may be involved. For example, 
        bioenergy feedstock production will have definite impacts and 
        possible tradeoffs related to conservation and rural 
        development. NIFA and AFRI are in part designed to ensure that 
        funded projects are horizontally integrated across disciplines 
        and resource issues.

    What criteria should USDA use to prioritize agricultural science 
(i.e., research, education and extension) investments to address these 
issues? Response--

  <bullet> A significant portion of RE&E funding should be committed to 
        `fundamental' research. It is well established that fundamental 
        research, as contrasted with `applied' research dedicated to 
        specific issues, can yield unexpected outcomes that prove to 
        provide tremendous value in addressing multiple issues.

  <bullet> USDA has an obligation to prioritize investments in internal 
        research capabilities, such as the Agricultural Research 
        Service. How well NIFA is staffed and functions will be 
        critical to effectively allocating investments. The competitive 
        and priority setting processes for AFRI are also important.

  <bullet> USDA is urged to include in its RE&E mission a continued and 
        expanded focus on animal health and diseases.

    How might USDA better coordinate agricultural sciences among its 
various agencies and with its partners? Response--

  <bullet> This is a central charge for USDA. It is less clear how 
        coordination can or will be improved with USDA's partners--in 
        particular other Federal agencies such as the Department of 
        Energy and the Environmental Protection Agency, where many 
        issues and science overlap.

    What are some examples where agricultural sciences are successfully 
coordinated for maximum benefit? Why were they successful? Response--

  <bullet> It would appear that bioenergy is one area where reasonably 
        effective coordination is occurring within USDA and with other 
        agencies. However, conservation, environmental and emerging 
        climate change concerns are likely to highlight the need for 
        more coordination.

    What are some examples where agricultural sciences are not 
coordinated effectively? Why is coordination lacking? What are the 
barriers? Response--

  <bullet> Historically when new issues emerge the initial response 
        tends to be fragmented at best, with improved coordination 
        evolving over time.

    What else might USDA do to improve coordination of science; enhance 
USDA's ability to identify issues and prioritize investments; and 
evaluate its role in science implementation and coordination? 
Response--

  <bullet> USDA might consider establishing and adhering to a clear 
        protocol under which any emerging issue is vetted regarding 
        interrelationships with other issues and which agencies should 
        be involved.

  <bullet> Since existing issues tend to be dynamic, periodic review 
        might usefully be built into the process.

    National C-FAR also urged USDA to continue encouraging and 
facilitating strong stakeholder participation as the roadmap is 
developed and implemented--not only by those in the research, education 
and extension community, but also by the multitude of stakeholder 
``customers'' who need and will benefit from RE&E outcomes--and urged 
that the new programs be tasked with being inclusive in their 
operations. National C-FAR also supported an emphasis on cross-agency 
and interdepartmental coordination and collaboration and including 
funding for integrated projects that encompass research and 
translational education.

    The Chairman. Thank you, Mr. Layton.
    And, Mr. Layton, you basically answered my first question, 
and you might want to elaborate on it, if you want to, when Dr. 
Coston is done, but one of our biggest challenges for 
agriculture research has been money inadequacy.
    What are your groups doing to bring more groups to the 
table in order to promote agriculture research? And, as I said, 
Mr. Layton, you have elaborated significantly on that. But, Dr. 
Coston, I don't know if you wanted to say what you have been up 
to, as far as that goes.
    Mr. Layton. Yes, we are. National C-FAR, of course, is a 
coalition of 60 some groups whose sole mission in life is to 
increase funding for research. We have been in existence for 6 
or 7 years, and, quite frankly, we have struggled with the 
strategy of how to do that.
    One of the things which we do, and are very proud of, is a 
seminar series which you allow us to hold in this room where we 
bring leading-edge researchers to the Hill, approximately once 
a month, to expose Congress to research which we think will 
be--won't change the world, but will be helpful. We are looking 
at how we can best move forward.
    But, the thing that I am most excited about is, I think for 
the first time in my memory, the producer groups have realized 
that we need to do more. I think, traditionally, we have 
supported research by coming to Congress when we have a problem 
and looking for an earmark, and that has been fairly 
successful. But, otherwise, we have came to our ARS researchers 
and we have came to our land-grants and told them that we 
wanted and expected them to carry the ball. We have realized 
that we need to do more than that. I think we are in 
discussions now of how best to move forward, and we can be more 
effective.
    The Chairman. Dr. Coston?
    Dr. Coston. We, in the land-grant system, we are part of 
that agricultural tradition, including with producers, of doing 
a remarkable and fantastic job for this nation and not claiming 
credit for it. This nation is well fed, well taken care of. And 
it is the collective of new information and technology 
implementation by the agricultural industries.
    We, in the land-grant system, are taking a more deliberate 
effort to try to point out the things that are being 
accomplished and what they mean, explain the answer to the 
question, ``So what? Why should people in inner cities, and 
people who are not as closely tied to it, appreciate and 
understand the importance that agriculture has to their daily 
lives and also to the vitality of their nation?''
    The Chairman. Dr. Coston, you referred to, in your 
testimony, the problem that we have with research dollars being 
raided by the appropriators and OMB. That is an age-old 
problem. I remember Kika de la Garza for 17 years complaining 
about that.
    But what can NIFA do to attract the attention so we stop 
having these raids by the appropriators and by OMB?
    Dr. Coston. Mr. Chairman, thank you for the question.
    That was part of the reason that the land-grant community 
got behind the CREATE-21 concept and the idea of the National 
Institute; part of the reason that we wanted to see the Under 
Secretary also carry the title of Chief Scientist; and part of 
the reason for promoting the National Institute, to have 
someone of great esteem and an eminent scientist. And, as I 
said, we are pleased that Dr. Beachy is there. He certainly 
brings that stature. It is part of having the understanding--of 
having that understanding of the importance of the science, 
education, outreach efforts that are administered through the 
National Institute.
    We also are pleased that in Fiscal Year 2009, and so far in 
the appropriations discussions for Fiscal Year 2010, there have 
not been some of those traditional raids. And we believe that 
it is both the results of this National Institute formation, 
the stature it brings, and also the success in advocacy and the 
collective effort of the scientific community, working with the 
practitioner community all across the nation.
    The Chairman. Thank you.
    I recognize the gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Dr. Coston, what is the position of the Association of 
Public and Land-grant Universities regarding the balance of 
funding between formula and special competitive grants?
    Dr. Coston. The position is that they are both critically 
important.
    We fully recognize that there is a lot of emphasis and a 
lot of push on competitive grants. We fully support that type 
of work, and we are pleased with the new AFRI program and the 
other programs.
    However, this nation has benefited by the formula programs 
that go out to the institutions in each of your states, and in 
the territories, that reach on to the reservations of Native 
Americans and reach throughout this nation. Those programs are 
vital for the continued functioning of land-grant universities. 
We are fully accountable for those funds, both programmatically 
and fiscally. And our position is that a balanced portfolio of 
investment is essential for us to continue what we are doing. 
And we are glad to share what it is we do and let you know.
    Mr. Goodlatte. Well, I appreciate that answer, but it 
doesn't tell me a lot. Obviously, in a perfect world, if you 
had a lot of resources for both these uses of funding, we would 
do as much as we could with both. I think that is your answer.
    But since we don't, how do you balance it? Is it 50-50? 
Given the level of funding you have seen in recent years, do 
you have to have more formula funds for these universities, or 
are they able to compete for some of these competitive grants?
    Dr. Coston. Well, the answer is we are able to compete 
partly because the capacity or formula funds are there.
    There are a number of things that competitive grants will 
not accomplish. If I may use an example from Congressman 
Pomeroy's state very quickly, in 1993 a devastating disease hit 
the small grains in the Upper Great Plains, a disease called 
wheat scab. Traditionally, when you have something like that 
hit, the way to handle that is through the development of new 
varieties. And it typically takes 12 to 15 years for a new 
variety to be developed.
    In the late 1980s, there was a scientist at North Dakota 
State University, Richard Frohberg, who looked over the horizon 
and saw that this might come. Because the experiment station 
director had Hatch Act funds, formula funds, and believed in 
the eminence of Dr. Frohberg's science, there was an investment 
made.
    What ultimately occurred was the first new variety out of 
that program was released in 2000----
    Mr. Goodlatte. I hate to interrupt you, but I have 2 
minutes left and about six more questions.
    Dr. Coston. Yes, sir.
    Mr. Goodlatte. Does the APLU and all of its members support 
elimination of special earmarked research grants?
    Dr. Coston. That is something that each institution will 
deal with with its own respective members.
    Mr. Goodlatte. Mr. Layton, while serving on the USDA 
Research Advisory Board, did you feel that USDA actively 
engaged the board in the areas of program and budget 
development?
    Mr. Layton. Not so much in budget, but certainly on program 
development. I certainly felt that USDA was always forthcoming 
with the NAREEE board, always tried to lay out what they were 
doing and why, and actively sought our advice and opinions on 
how to improve the programs.
    Mr. Goodlatte. What advice would you offer the new 
Administration on how they might better utilize the Advisory 
Board?
    Mr. Layton. I am not sure how they could better use it. I 
think the Advisory Board itself will, in the coming year and 
the coming years, provide better information to Congress and 
the Administration, in that in the last year the NAREEE 
Advisory Board itself looked at itself, reviewed how it does 
things, and tried to change how it does its business, tried to 
be more interactive with USDA and also spend more time within 
itself discussing, not what has happened in the past, but what 
needs to happen to make USDA research better.
    So, hopefully, hopefully, that will make it more effective.
    Mr. Goodlatte. And what suggestions do you have regarding 
the balance of funding between intramural and extramural 
research support?
    Mr. Layton. As President of National C-FAR, our policy has 
always been and continues to be that we do not support taking 
funds from any existing programs to fund new programs. We are 
very supportive of the National Institute, in that we believe 
that is the area in which funds can grow. But we are supportive 
of it being new funds, not taking funds from other areas.
    From both the perspective of National C-FAR and the 
American Soybean Association, we have always realized the 
importance of formula funds. They provide many day-to-day 
services to solve immediate problems and to solve ongoing 
problems that grant-funded programs may not address. So we 
believe that both formula funds and grant-funded programs have 
importance.
    Mr. Goodlatte. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from Maryland, Mr. Kratovil.
    Mr. Kratovil. Thank you, Mr. Chairman.
    Mr. Layton, welcome again. Congratulations on moving to a 
new area with your grape production. As I think you mentioned 
in your testimony, that has to be exciting and also has to be a 
little overwhelming, I would think.
    But my question is, in deciding to do that or in making 
best efforts to make it a productive enterprise, were any of 
these research programs helpful to you?
    Mr. Layton. Actually, they have been very important and 
useful. The first person that we went to when we started to 
talk about grapes was the extension viticulturalist from the 
University of Maryland, our land-grant college who has helped 
us. We have also looked extensively at research from the land-
grants, particularly Virginia Tech, who has an extensive 
program, and University of California at Davis, which has 
extensive programs.
    So it has been vital, particularly for a grower starting 
out with no knowledge of the subject. And, while there are a 
lot of commercial enterprises out there, the advice is very--
grape-growing and wine-making tends to be--people do it by the 
seat of the pants. And that is not the way we wanted to address 
the enterprise. We wanted to address the enterprise from a 
scientific basis. And through the university systems and 
university research is the only way we could do that.
    Mr. Kratovil. In terms of going into this new production, 
what have been the biggest challenges that you have faced in 
doing that?
    Mr. Layton. The challenges for us have not been growing 
grapes or making wines; they have been regulatory, actually. 
Going through local and state regulatory processes has been the 
biggest challenge.
    As a farmer, we weren't afraid of growing grapes. Growing 
grapes is different from growing corn and soybeans, but it is 
the same. We know how to grow crops, we understand disease, we 
understand insects, and we can do that. Making wine has been 
and continues to be a big challenge.
    Mr. Kratovil. In terms of those regulatory challenges, 
having gone through it, what are your suggestions to make it 
easier for folks that are looking to go into new enterprises?
    Mr. Layton. To find good people to give you advice. In our 
case, as I say, we started out with the viticulturalist from 
the University of Maryland, the Winery Association, and hired a 
top-flight consultant who knows what he is doing.
    Mr. Kratovil. Okay.
    Dr. Coston, the extension service--as I go around, I hear 
all kinds of farmers talking about the extension service. It is 
obviously a very unique program. In many states, including 
Maryland, budget cuts are obviously taking its toll. That has 
happened before, but are you concerned about the ability of 
programs in some states to continue to survive? And what is 
going to be the impact of that, in your view?
    Dr. Coston. Different states are facing different 
situations. As all of you are well aware, the extension service 
is a partnership among the Federal Government, state 
government, through its respective land-grant, and local 
government, counties in most cases. Those programs have been 
incredibly important; over 3,000 offices across the United 
States. Without them, there will be some critical issues that 
can't be addressed.
    We believe that the U.S. Department of Agriculture needs to 
take advantage more and more of delivering programs through the 
extension service, as well as looking to other agencies across 
government. It is a unique system where people have standing in 
those communities and can be called on.
    Mr. Kratovil. Okay.
    Thank you, Mr. Chairman.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from Pennsylvania, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    Dr. Coston, I know that, in particular, many universities 
do research but our land-grant universities do some excellent 
research in the area of agriculture. And I was curious to get 
your impression of the end result, the roll-out.
    How well do we roll out those research findings that makes 
agriculture more successful, healthier, that type of thing? And 
what role does USDA--does USDA have a role in that, in 
partnering with your universities, to get that information out 
to the end-users, the agriculture community?
    Dr. Coston. Thank you for the question.
    Indeed, the extension service is a great way that it is 
rolled out. Our researchers see themselves as public servants. 
And the research that goes on at our universities is not 
considered completed until someone is actually utilizing it. 
Certainly, the spectrum of research that is done, who utilizes 
it, in some cases, are very different people. In some cases, it 
is agricultural producers themselves; in other cases, it is 
other scientists learning and pushing their work forward.
    We and USDA work very closely together. For example, in our 
state, we work very closely with the laboratories that the USDA 
Agricultural Research Service has, and work in concert with 
them in getting information they have included and out to 
producers, consumers, and others in our state that can use that 
to their advantage.
    Mr. Thompson. Okay. Thank you.
    The matching fund requirements included in many research 
grant programs are meant to leverage Federal funds with non-
Federal funds. How does counting unrecovered indirect costs as 
matching funds contribute to the goal of making more funds 
available for direct spending on individual research projects?
    Dr. Coston. That is a challenge. Each university has a 
negotiated rate with the Federal Government for indirect cost 
recovery. The caps that have been placed in some of the 
agricultural appropriation bills around some of these programs 
are not at those negotiated rates. And it makes it work very 
well for universities if we can count that difference between 
the capped rate in these appropriations bills and the 
negotiated rate that we have as part of those matching 
requirements. Those indirect costs are real costs for the 
institution to be able to carry out the work.
    Mr. Thompson. Okay. Thank you.
    Mr. Layton, while I understand the significance of the 
newly created National Institute of Food and Agriculture, I 
note your testimony briefly mentions the in-house research 
agencies of the Department. Are these programs of limited value 
to research customers such as yourself?
    Mr. Layton. The in-house research, ARS research, is 
extremely important to producers, in that grant-funded programs 
tend to be, in some cases, aimed more toward basic research, 
which is very important, and tend to be aimed toward specific 
areas of interest.
    I think with ARS and intramural research, we can, number 
one, have consistency over the long term. Many of our research 
needs may not be a 5 year project but may be a 20 year project, 
which fits better in the intramural research than extramural.
    It also allows USDA to set priorities about problems or 
issues that there may not be a lot of interest about within the 
grant-funded programs. I think it allows our decision-makers to 
balance where research needs to be done, because with 
intramural they direct themselves.
    And the balance between having intramural and extramural is 
very important to achieving the goals that we need to.
    Mr. Thompson. Great.
    Well, thank you to both you gentlemen for your testimony 
today.
    Mr. Chairman, I yield back.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from North Dakota, Mr. Pomeroy.
    Mr. Pomeroy. I thank the Chairman and regret that a 
conflicting meeting kept me from being here at the onset of 
this panel because I wanted to brag on my constituent, Dr. 
Coston, just for a moment.
    Sometimes with a panel we hope to have a variety of the 
nation's regions and perspectives covered. Well, Dr. Coston 
represents them all in one person, given his experience at 
Clemson and as an Associate Director of South Carolina Ag 
Experiment Station. From there, he was the Associate Director 
and Chief Operating Officer of the Oklahoma Ag Experiment 
Station; interim Associate Director of the Oklahoma Cooperative 
Extension Service; and now in Fargo, at North Dakota State 
University, he is Vice President of Agriculture and University 
Extension. And, in his capacity with this university, he serves 
on the Board of Agriculture Assembly and the Association of 
Public and Land-grant Universities. So he brings a varied 
perspective to this question.
    I want to pursue a little bit the question asked by Mr. 
Goodlatte, because I really think it does get to the foundation 
question of funding ag research. It is one we wrestle with: 
formula versus following emerging trends or something that is 
viewed to be of more topical and directed interest, earmarked 
funding or other competitive grant-funded ag research.
    What is the role of, basically, these formula grants in 
terms of sustaining a research infrastructure at our 
universities?
    Dr. Coston. Congressman, thank you for the kind remarks.
    And let me--I feel that I didn't answer Congressman 
Goodlatte's question quite definitively enough earlier. During 
the CREATE-21 process, the land-grant universities went on 
record as saying we supported new investment 70 percent into 
competitive programs, and 30 percent into capacity or formula 
programs. And that is the position we have had. So that is a 
little more definitive.
    Those capacity programs are vital because, as my colleague 
here said, there are a lot of things that cannot be supported 
through competitive programs. The example I was going through 
earlier about the wheat varieties, ultimately those wheat 
varieties have borne out. And, in 2008, North Dakota wheat 
farmers sold in excess of $2 billion of NDSU-derived varieties 
from those. And the germ plasm that came out of that program 
serves as the germ plasm source for the entire northern Great 
Plains. And I have talked with the scientist; he could not 
get--he could not get--competitive grants to support that work.
    So there are certain things that they just don't happen. 
Part of it is because it is going against the dogma of the 
scientific community, and if it doesn't fit, the review panel 
may not fund.
    The other important piece that the formula funds play is 
that that is the glue that holds the land-grant system 
together. There are in excess of 10,000 research scientists 
across this nation at land-grand universities, and counting out 
all the extension colleagues, et cetera, there are in excess of 
30,000 people. These funds provide the communications and the 
incentive for us to work together.
    And to draw a quick example, those of you who are familiar 
with Representative Pomeroy's state know that, this spring, we 
had devastating floods and terrible conditions. One of the 
things was, how to you do recovery? Part of that had to do with 
mold and things in homes and buildings following it. Kansas 
State has a remarkable program in that area with an incredible 
number of publications. We contacted them; we immediately had 
that information.
    That is the glue, and that is a part of what these formula 
funds do. And every one of your districts benefits from the 
work that goes on in North Dakota; we benefit from the work 
that goes on in California, or Maryland, or wherever.
    Mr. Pomeroy. You remind me when you mentioned the flood 
fight, you clean up pretty good for a hearing. I have seen you 
in muddy jeans in the flood-bedraggled conditions we all had as 
we fought that flood.
    Dr. Coston. Yes, sir. We all do what we have to.
    Mr. Pomeroy. You are also--my time is about out, but you 
are Chairman of a committee working with USDA as they implement 
the new title pursuant to the farm bill. How are you coming?
    Dr. Coston. I would say we are cautiously optimistic. We 
are pleased with things to date. We want to see things move 
forward quickly. And we are committed to working with the Under 
Secretary and the new Director of the National Institute to 
implement these things.
    Mr. Pomeroy. I thank the Chairman.
    We will see you at homecoming, Dr. Coston.
    The Chairman. The chair thanks the gentleman.
    And thank you, Dr. Coston and Mr. Layton, very much.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any question posed by a Member.
    This hearing of the Subcommittee on Conservation, Credit, 
Energy, and Research is adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
